______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
RAUL ADRIAN TORRES, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
______________________________________
Petitioner, through counsel, asks leave to file the attached Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Counsel was
appointed in the court of appeals under the Criminal Justice Act, 18 U.S.C. §
3006A(b). This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,
August 3 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________
RAUL ADRIAN TORRES, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
__________________________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Attorney for the Petitioner

QUESTION PRESENTED

Whether a search of a backpack or other bag that was being carried by an
arrestee is permissible as a search incident to arrest even after officers have
secured the arrestee in handcuffs.

i

TABLE OF CONTENTS
PAGE
I.

OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

III.

CONSTITUTIONAL PROVISION INVOLVED. . . . . . . . . . . . . . . . . . 2

IV.

STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

V.

VI.

A.

JURISDICTION IN THE COURTS BELOW... . . . . . . . . . . . . . 2

B.

FACTS MATERIAL TO CONSIDERATION OF THE
QUESTION PRESENTED.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
1.

Arrest and Search.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

2.

Indictment, Motions, and District Court Ruling on
Motions.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

3.

Appeal.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

REASONS FOR GRANTING THE WRIT. . . . . . . . . . . . . . . . . . . . . . 8
A.

THERE IS A SPLIT IN THE LOWER COURTS ON THE
QUESTION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

B.

THE PRESENT CASE IS AN EXCELLENT VEHICLE FOR
RESOLVING THE SPLIT IN THE CIRCUITS.. . . . . . . . . . . . 14

C.

THE QUESTION IS AN IMPORTANT ONE BECAUSE IT
WILL ARISE FREQUENTLY.. . . . . . . . . . . . . . . . . . . . . . . . 16

D.

THE DECISION BELOW IS AN ERRONEOUS APPLICATION
OF THE SEARCH INCIDENT TO ARREST EXCEPTION.. . . 17

CONCLUSION.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX 1 (court of appeals opinion). . . . . . . . . . . . . . . . . . . . . . . . . . A001
APPENDIX 2 (order denying rehearing). . . . . . . . . . . . . . . . . . . . . . . . . . A015
APPENDIX 3 (transcript of district court hearing on motions).. . . . . . . . . . A016
APPENDIX 4 (district court motion to suppress evidence). . . . . . . . . . . . . A053
ii

TABLE OF CONTENTS (cont’d)
PAGE
APPENDIX 5 (Appellant’s Opening Brief [portions relevant to question
presented]). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A081
APPENDIX 6 (Petition for Rehearing and Suggestion for Rehearing En Banc
[portions relevant to question presented]). . . . . . . . . . . . . . . . . . . . . A110

iii

TABLE OF AUTHORITIES
CASES
PAGE
Arizona v. Gant,
556 U.S. 332 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Chimel v. California,
395 U.S. 752 (1969). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 16, 17
Feaster v. State,
47 A.3d 1051 (Md. App. 2012).. . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 15
New York v. Belton,
453 U.S. 454 (1981). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 16
State v. Galpin,
80 P.3d 1207 (Mont. 2003). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
State v. LaMay,
103 P.3d 440 (Idaho 2004).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Thornton v. United States,
541 U.S. 615 (2004). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 16
United States v. Ciotti,
469 F.2d 1204 (3d Cir. 1972). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Cook,
808 F.3d 1195 (9th Cir. 2015). . . . . . . . . . . . . . . . . . . . . 6, 7, 11, 12, 13
United States v. Davis,
997 F.3d 191 (4th Cir. 2021). . . . . . . . . . . . . . . . . . . . 11, 12, 13, 15, 16
United States v. Ferebee,
957 F.3d 406 (4th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . 12, 14, 15, 16
United States v. Frick,
490 F.2d 666 (5th Cir. 1973). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Gordon,
694 Fed. Appx. 556 (9th Cir. 2017) (unpublished). . . . . . . . . . . . . . . . 13
United States v. Jones,
475 F.2d 723 (5th Cir. 1973). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
iv

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
United States v. Knapp,
917 F.3d 1161 (10th Cir. 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 13
United States v. Myers,
308 F.3d 251 (3d Cir. 2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Perdoma,
621 F.3d 745 (8th Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 14
United States v. Shakir,
616 F.3d 315 (3d Cir. 2010). . . . . . . . . . . . . . . . . . . . . . 6, 12, 13, 14, 15
STATUTES, RULES, AND GUIDELINES
18 U.S.C. § 3231. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 922(g)(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITIES
Myron Moskovitz, A Rule in Search of a Reason: An Empirical
Reexamination of Chimel and Belton, 2002 Wis. L. Rev. 657. . . . . . . . 16

v

_____________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________________________________

Raul Adrian Torres petitions for a writ of certiorari to review the
judgment and opinion of the United States Court of Appeals for the Ninth
Circuit.

I.
OPINIONS BELOW

The unpublished memorandum disposition of the United States Court of
Appeals for the Ninth Circuit is included in the appendix as Appendix 1. An
order denying a petition for rehearing en banc is included in the appendix as
Appendix 2. A transcript of the district court hearing with the district court’s
oral rulings is included in the appendix as Appendix 3.

II.
JURISDICTION

The judgment of the United States Court of Appeals for the Ninth
Circuit was entered on April 27, 2021, see App. A001-14, and a timely petition
for rehearing en banc was denied on June 3, 2021, see App. A015. The
1

jurisdiction of this Court is invoked pursuant to 62 Stat. 928, 28 U.S.C. §
1254(1).

III.
CONSTITUTIONAL PROVISION INVOLVED

The Fourth Amendment to the United States Constitution provides in
pertinent part:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, . . . .

IV.
STATEMENT OF THE CASE

A.

JURISDICTION IN THE COURTS BELOW.

The district court had jurisdiction under 18 U.S.C. § 3231. The court of
appeals had jurisdiction under 28 U.S.C. § 1291.

B.

FACTS MATERIAL TO CONSIDERATION OF THE QUESTION

PRESENTED.

1.

Arrest and Search.

On March 15, 2018, a Fresno, California, Police Department detective
2

who was monitoring social media for gang members observed a video showing
Petitioner and another man pointing a gun and making gang signs. See App.
A066-67. The detective mistakenly identified Petitioner as another man who
had a prior felon in possession of ammunition conviction and outstanding
warrant. App. A115; see App. A067, A086-87, A089, A091-92. Two officers
who were surveilling the house where the video was recorded subsequently
observed Petitioner and another man leave. See App. A074-75. Petitioner had
a small black backpack. App. A074.
After observing the other man and Petitioner leave the house, one of the
surveilling officers got out of the car the officers were in, drew his gun, and
yelled, “Fresno Police, let me see your hands.” App. A075. The other man
stopped, but Petitioner began to walk faster. App. A075. When the officer
again stated, “Police, Stop!,” Petitioner began to run. App. A075. The officer
chased him and continued yelling, “Police, Stop!” App. A075.
Petitioner turned into an alley and ran through the alley. App. A075.
The officer who had remained in the car was able to drive up next to Petitioner
and attempted to stop Petitioner by drifting into Petitioner’s path. App. A075.
Petitioner slipped and fell when he tried to stop, and the officer who was
running after Petitioner caught up to Petitioner. App. A075. Petitioner stood
up facing the officer with clenched fists, and the officer knocked Petitioner to
the ground by kicking him in the chest. App. A075.
The officer in the car got out and came to help the officer who had
knocked Petitioner to the ground. See App. A076. Petitioner rolled onto his
stomach, placed his hands under his stomach and tried to get up. App. A07576. The officer who had knocked him down was on top of him and struck him
3

several times to keep him down. App. A076. While the officer who had come
from the car helped, the officer who knocked Petitioner down was able to pull
Petitioner’s arms to his back and handcuff him. App. A076. The other officer
then retrieved a pair of leg shackles from the car and placed them on
Petitioner’s ankles. App. A076.
While waiting for additional units, one of the officers asked Petitioner
why he had run, and Petitioner replied, “Cause I have a gun.” App. A076.
The other officer then opened the backpack and found a gun. App. A076.
Another officer who had come to the scene placed Petitioner in a patrol car,
asked him for biographical information, and discovered he was not the man
with the prior felon in possession of ammunition conviction, though he was on
felony probation. See App. A080. The original detective came to the scene,
read Miranda warnings to Petitioner, and questioned him. App. A069.
Petitioner made additional statements about the gun, including that he did
possess it, that he knew it had obliterated serial numbers, and that he needed it
for protection. See App. A069-70.

2.

Indictment, Motions, and District Court Ruling on Motions.

Petitioner was indicted for being a felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1). App. A083, A090-91, A116. He filed
several motions, including a motion to suppress which made multiple Fourth
and Fifth Amendment arguments, see App. A053-80. One of the arguments
was that the search of the backpack was not a lawful search incident to arrest
because it took place after Petitioner was handcuffed. See App. A060.
4

Another argument was that the “Cause I have a gun” statement in response to
the question about why Petitioner had run should be suppressed because it was
in response to custodial interrogation without Miranda warnings. See App.
A060-61. Defense counsel also argued there needed to be an evidentiary
hearing. See App. A019.
The district court denied the motion without an evidentiary hearing. It
focused largely on whether there was probable cause to arrest Petitioner
despite the mistaken identification. See App. A037-39, A042-48. It seemed to
recognize the question about why Petitioner had run was custodial
interrogation in violation of the Miranda rule, see App. A040-41, but
suggested the statement did not matter because the officers would have found
the gun anyway, see App. A043, A047. The court did not comment on the
other issues. See App. A051 (simply “incorporat[ing] its argument in the
questions just asked and answers” and denying motion).

3.

Appeal.

Petitioner subsequently entered a conditional guilty plea and appealed
after being sentenced. See App. A094, A117. One of the arguments he made
on appeal was that the search of the backpack was not a lawful search incident
to arrest. See App. A098-105.1 Petitioner acknowledged that the Ninth Circuit
1

Petitioner also responded to a government argument that the gun
would have been inevitably discovered during an inventory search by pointing
to Ninth Circuit case law requiring the government to provide evidence of a
valid inventory search policy and the government’s failure to provide any such
evidence in the case at bar. See App. A105-08.
5

had held in a prior published opinion – United States v. Cook, 808 F.3d 1195
(9th Cir. 2015) – that a search incident to arrest was permissible even when the
defendant was handcuffed face down on the ground, see App. A099-100, but
argued Cook did not control for two reasons. First, Petitioner argued there
were “intervening acts” that prevented the search from satisfying a
“contemporaneity requirement” established by other Ninth Circuit cases. See
App. A100-03. Alternatively, he argued there needed to be an evidentiary
hearing to determine relevant facts, including the location of the backpack,
which was potentially relevant under Cook.
Was the backpack right next to Petitioner after he was
handcuffed and shackled, like the backpack in Cook after
the defendant there was handcuffed (but not placed in leg
shackles)? Or was it some feet away, and were the officers
between Mr. Torres and the backpack? Compare United
States v. Knapp, 917 F.3d 1161, 1169 (10th Cir. 2019)
(search of purse not justified as search incident to arrest
when “the purse was closed and three to four feet behind
[the defendant], and officers had maintained exclusive
possession of it since placing her in handcuffs”), with
United States v. Shakir, 616 F.3d 315, 318-19 (3d Cir.
2010) (search of bag justified as search incident to arrest
even when defendant handcuffed because defendant was
standing and “his bag was right next to him”;
distinguishing United States v. Myers, 308 F.3d 251 (3d
Cir. 2002), where defendant was lying on floor and bag was
three feet away and zipped shut).
App. A104. Petitioner also suggested the court should reconsider Cook en
banc if the panel did view it as controlling. See App. A104 n.7.
The panel rejected Petitioner’s argument in a single paragraph, based on
Cook. It wrote:
The search did not violate the Fourth Amendment,
however, because it falls within the search incident to a
lawful arrest exception. See Arizona v. Gant, 556 U.S. 332,
351 (2009). This case is controlled by United States v.
Cook, 808 F.3d 1195 (9th Cir. 2015), which held that the
6

search incident to a lawful arrest exception applied even
though the individual searched was on the ground in
handcuffs when his backpack was searched nearby. See id.
at 1199-1200.
App. A004.2
Petitioner then filed a petition for rehearing en banc. See App. A11023. He argued first that the court should overrule Cook because Cook is
inconsistent with clarification of the search incident to arrest exception in
Gant. See App. A118-21. He argued alternatively that the court should
strictly limit Cook to cases where the backpack is right next to the arrestee and
that that requires either reversal or remand for an evidentiary hearing because
there is no evidence of where the backpack was in the present record. See
App. A121-22.3 The court of appeals denied the petition without comment.
See App. A015.

*

*

*

2

The panel also rejected several other arguments not being pursued in
this petition for writ of certiorari. See App. A003-08. One judge of the panel
dissented on one of those questions, but she did not dissent from the holding
on the search. See App. A009-14.
3

Petitioner also challenged the Ninth Circuit’s application of the
harmless error rule to the claim that the question about why Petitioner had run
was custodial interrogation in violation of the Miranda rule, see App. A11112, A114, A122, but that issue is not being pursued in this petition for writ of
certiorari.
7

IV.
REASONS FOR GRANTING THE WRIT

THE COURT SHOULD GRANT THE WRIT TO RESOLVE A SPLIT IN
THE LOWER COURTS ON THE QUESTION OF WHETHER A SEARCH
INCIDENT TO ARREST OF A BACKPACK OR OTHER BAG THAT WAS
BEING CARRIED BY AN ARRESTEE IS PERMISSIBLE AS A SEARCH
INCIDENT TO ARREST EVEN AFTER OFFICERS HAVE SECURED THE
ARRESTEE IN HANDCUFFS.

The Court should grant the writ because there is a split in the circuits
about whether a search of a backpack or other bag that was being carried by an
arrestee is permissible as a search incident to arrest even after officers have
secured the arrestee in handcuffs. Some courts have held searches in these
circumstances lawful, apparently imagining Houdini-like or Herculean
capabilities. Other courts have held such searches unlawful, recognizing there
was no realistic possibility of the defendant accessing the backpack or bag and
refusing to imagine “acrobatic maneuvers” or rely on “far-fetched
possibilities.”
This case is an excellent vehicle for resolving the split for two reasons.
First, the restraint here was not somewhere in the middle of a continuum where
Petitioner had some freedom of movement; rather, he was as completely
restrained as possible, being not only handcuffed, but face down on the
ground, held there by an officer, with his legs shackled in addition to his
hands. Second, were the Court to conclude that a search after the arrestee is
8

handcuffed might be permissible as a search incident to arrest in certain
unusual or extraordinary circumstances – e.g., a defendant who does have
Houdini-like or Herculean capabilities, or, perhaps, a defendant who is not
restrained or under control in any way other than being handcuffed – the Court
can use this case to make clear that there must be factual findings of such
unusual or extraordinary circumstances.
Finally, the question is an important one and it was decided incorrectly
by the lower court. The question is important because it is standard police
practice to handcuff an arrestee before searching, that means the question
presented here will arise frequently, and police should know what they can and
cannot do in such a common scenario. The question was decided incorrectly
by the lower court because it will be in only the most unusual or extraordinary
circumstances in which there is a realistic concern that an arrestee might
access a backpack or bag even after he was handcuffed, and such unusual or
extraordinary circumstances must be found as facts after an evidentiary
hearing, not simply assumed.

A.

THERE IS A SPLIT IN THE LOWER COURTS ON THE QUESTION.

The Court revisited its search incident to arrest case law a little more
than a decade ago in Arizona v. Gant, 556 U.S. 332 (2009). What triggered
the Court’s review was a “chorus that has called for us to revisit [New York v.]
Belton[, 453 U.S. 454 (1981)].” Gant, 556 U.S. at 338. The Court recognized
that Belton had been “widely understood to allow a vehicle search incident to
the arrest of a recent occupant even if there is no possibility the arrestee could
9

gain access to the vehicle at the time of the search.” Gant, 556 U.S. at 341.
The Court then clarified that this was not the proper reading of Belton and held
it “authorizes the police to search a vehicle incident to a recent occupant’s
arrest only when the arrestee is unsecured and within reaching distance of the
passenger compartment at the time of the search.” Gant, 556 U.S. at 343.
In reaching this conclusion, the Court reached back to the origins of the
search incident to arrest exception and its general rationale – as clarified in the
non-vehicle search case of Chimel v. California, 395 U.S. 752 (1969). It
explained:
In Chimel, we held that a search incident to arrest
may only include “the arrestee’s person and the area ‘within
his immediate control’ – construing that phrase to mean the
area from within which he might gain possession of a
weapon or destructible evidence.” Ibid. That limitation,
which continues to define the boundaries of the exception,
ensures that the scope of a search incident to arrest is
commensurate with its purposes of protecting arresting
officers and safeguarding any evidence of the offense of
arrest that an arrestee might conceal or destroy. See ibid.
(noting that searches incident to arrest are reasonable “in
order to remove any weapons [the arrestee] might seek to
use” and “in order to prevent [the] concealment or
destruction” of evidence (emphasis added)). If there is no
possibility that an arrestee could reach into the area that law
enforcement officers seek to search, both justifications for
the search-incident-to-arrest exception are absent and the
rule does not apply. (Citation omitted.)
Gant, 556 U.S. at 339.
The Court then applied this rationale to the search of the vehicle in
Gant, which had taken place after the arrestee had been removed from the
vehicle, handcuffed, and placed in a police car.
Neither the possibility of access nor the likelihood of
discovering offense-related evidence authorized a search in
this case. Unlike in Belton, which involved a single officer
confronted with four unsecured arrestees, the five officers
10

in this case outnumbered the three arrestees, all of whom
had been handcuffed and secured in separate patrol cars
before the officers searched Gant’s car. Under those
circumstances, Gant clearly was not within reaching
distance of his car at the time of the search.
Gant, 556 U.S. at 344.
While Gant involved the search of a vehicle, its reasoning, which was
based on the non-vehicle search case of Chimel, extends to non-vehicle search
incident to arrest cases. The lower courts have generally recognized this. See
United States v. Davis, 997 F.3d 191, 197 (4th Cir. 2021) (collecting cases).
But they are divided – both specifically and more generally – on the proper
application of Gant in such circumstances.
To begin, there is a split on just the specific facts of the present case.
The Ninth Circuit upheld the search in the present case despite the fact that
Petitioner was face down on the ground, at least one officer was holding him
down, and he had his hands cuffed behind his back and his ankles in leg irons.
See also Cook, 808 F.3d at 1200 (noting defendant was face down on ground).
But the Fourth Circuit in Davis considered facts almost identical to these and
held the search of the backpack was not a permissible search incident to arrest.
Under these conditions, [the officer’s] warrantless
search of Davis’s backpack was unlawful. To be sure, there
is a level of precarity when police officers arrest a suspect
who has fled arrest. But there is no doubt that Davis was
secured and not within reaching distance of his backpack
when [the officer] unzipped and searched it. Davis was
face down on the ground and handcuffed with his hands
behind his back. He had just been ordered out of the
swamp at gunpoint. The only other individuals within
eyesight were officers, who outnumbered him three to one.
And while this all took place in a residential area, it appears
there was no one else around to distract the officers.
Id., 997 F.3d at 198.

11

In addition to the split on the specific facts of the present case, there are
splits at a more general level. At a rhetorical level, Davis declined to rely on
“the various acrobatic maneuvers Davis would have needed to perform to
place the backpack within his reaching distance at the time of the search.” Id.
at 198. See also United States v. Ferebee, 957 F.3d 406, 425 (4th Cir. 2020)
(Floyd, J., dissenting) (complaining that “the best the government can do is
speculate that Ferebee’s handcuffs could have spontaneously failed; or that
Ferebee, still handcuffed, could have rushed back into the house, dodged past
the couch and the various officers crowding the room, and, in a remarkable
feat of dexterity, reached into his backpack to destroy evidence or retrieve his
firearm”); United States v. Perdoma, 621 F.3d 745, 757 (8th Cir. 2010) (Bye,
J., dissenting) (acknowledging “remote possibility that [the defendant] could
have broken free, single-handedly overpowered three police officers, and,
while handcuffed behind his back, unzipped his luggage, and gained access to
a weapon or evidence,” but objecting that “Gant teaches us that such farfetched possibilities do not justify a warrantless search incident to arrest”).
One state court has read the case law differently than Davis, however, opining
that “the courts, unwilling to risk a dead officer, will look on the arrestee as if
he were Harry Houdini.” Feaster v. State, 47 A.3d 1051, 1071 (Md. App.
2012). See, e.g., United States v. Shakir, 616 F.3d 315, 321 (3d Cir. 2010)
(“Although he was handcuffed and guarded by two policemen, [the
defendant’s] bag was literally at his feet, so it was accessible if he had dropped
to the floor.”); United States v. Frick, 490 F.2d 666, 673 (5th Cir. 1973)
(Goldberg, J., concurring in part and dissenting in part) (complaining that
defendant could have reached briefcase only if he had been “possessed of the
12

skill of Houdini and the strength of Hercules”), quoted in Thornton v. United
States, 541 U.S. 615, 626 (2004) (Scalia, J., concurring in judgment).
These differing views are reflected in the courts’ application of Gant to
searches of backpacks or other bags after defendants are handcuffed. The
Ninth Circuit – in the unpublished opinion in this case, another unpublished
opinion in United States v. Gordon, 694 Fed. Appx. 556 (9th Cir. 2017)
(unpublished), and the published opinion in Cook, which both the panel in this
case and the panel in Gordon treated as controlling, see App. A004; Gordon,
694 Fed. Appx. at 557 – was willing to speculate that the defendants could
either access the backpack or bag even with handcuffs on or break free from
the handcuffs to access the backpack or bag. The Third Circuit – in Shakir –
was willing to engage in similar speculation. See id., 616 F.3d at 321. The
Eighth Circuit – in Perdoma – was also apparently willing to engage in such
speculation, though it focused more on the question of the officers’ control of
the bag than the handcuffs on the defendant, and relied on pre-Gant case law,
see id., 621 F.3d at 757 (Bye, J., dissenting).
Other circuits have not been willing to engage in such speculation,
however. First, there is the Davis case discussed above, which refused to
imagine “acrobatic maneuvers.” Second, there is the Tenth Circuit’s opinion
in United States v. Knapp, 917 F.3d 1161 (10th Cir. 2019). The court there
held handcuffing of the defendant made a search of her purse improper even
though the purse was just three or four feet away. See id. at 1168-69.4

4

The record in the Davis case did not reflect exactly how close the
backpack was to the defendant, but he had “dropped the bag next to him before
lying down.” Id., 997 F.3d at 190. And the record in the present case is
13

In sum, there is a split in the circuits on the propriety of a search
incident to arrest on the exact facts of the present case; there is a split in the
circuits’ rhetoric about relying upon “Harry Houdini” and “Hercules”
capabilities, “acrobatic maneuvers,” and “far-fetched possibilities”; and there
is a split in the circuits’ application of Gant in the cases in which defendants
were handcuffed. The writ should be granted in order to resolve these splits in
the lower courts.

B.

THE PRESENT CASE IS AN EXCELLENT VEHICLE FOR

RESOLVING THE SPLIT IN THE CIRCUITS.

The present case is an excellent vehicle for resolving the split in the
circuits – in two respects. First, the restraint here was not somewhere in the
middle of the continuum. There was nothing qualified about it. Petitioner was
not only handcuffed, but was handcuffed behind his back, was face down on
the ground, had at least one officer holding him down, and was restrained with
leg irons to boot. Compare Ferebee, 947 F.3d at 419 (noting defendant “still
could walk around somewhat freely and could easily have made a break for the
backpack inside the house” and defendant “managed to wad up and throw
away his marijuana joint without attracting the attention of the police officers
around him”); Shakir, 616 F.3d at 321 (defendant standing with bag at his
feet). See also United States v. Jones, 475 F.2d 723, 728 (5th Cir. 1973)
(discussing difference between defendant’s hands cuffed in front of him and

similarly unclear about exactly where the backpack was.
14

hands cuffed behind him). Such complete restraint gives the court an
opportunity to clarify whether it agrees with, on the one hand, the courts that
have recognized Harry Houdini capabilities or, on the other hand, the courts
that have declined to speculate about “far-fetched possibilities” and “acrobatic
maneuvers.” Supra pp. 12-13.
Second, this case is an excellent vehicle if the Court were to conclude
the question is a more fact-specific question. Some courts have attempted to
reconcile the cases based on factual differences, which may or may not be
significant enough to justify the different results. See, e.g., Davis, 997 F.3d at
198-200 (attempting to distinguish Ferebee and Shakir). Other cases have
emphasized the importance of the trial court’s factual findings about whether
the defendant in fact could have broken free and reached the backpack or other
bag and the need to give deference to those factual findings. See, e.g.,United
States v. Ciotti, 469 F.2d 1204, 1207 (3d Cir. 1972) (relying on district court
finding that handcuffs would not prevent defendants from opening briefcases
or using guns if guns were present); State v. LaMay, 103 P.3d 440, 452 (Idaho
2004) (relying on district court determination that defendant’s backpack was
not within his immediate control); Feaster v. State, 47 A.3d at 1072
(emphasizing “the wisdom of appellate deference to the factfinding of the trial
judge”); State v. Galpin, 80 P.3d 1207, 1217 (Mont. 2003) (relying on district
court finding that coat and duffel bag were within defendants “grab area” and
district court finding that defendant, although handcuffed, could potentially
reach coat and remove weapon or eliminate evidence).
This Court can clarify whether such factual findings can justify a search
incident to arrest after handcuffing – as well as just what findings are
15

necessary. The Court could emphasize the importance of such factual findings
by reversing based on the failure to hold an evidentiary hearing in the present
case and the resulting failure to make factual findings about how Petitioner
could have somehow thrown the officer off of him, gotten off the ground, and
either freed himself from the handcuffs and leg irons or somehow reached into
the backpack even with the handcuffs and leg irons still on.

C.

THE QUESTION IS AN IMPORTANT ONE BECAUSE IT WILL

ARISE FREQUENTLY.

The question is also an important one, because it will arise frequently.
What evidence there is of standard practice – as well as consideration of what
the only rational practice is – suggests the standard practice is to handcuff a
defendant before conducting a search. See Myron Moskovitz, A Rule in
Search of a Reason: An Empirical Reexamination of Chimel and Belton, 2002
Wis. L. Rev. 657, 663-66 (summarizing efforts to obtain law enforcement
training materials and consultations with law enforcement representatives and
“conclud[ing] that, in general, police officers are taught to handcuff an arrestee
(preferably behind his back) before searching the area around him”). See also
Thornton v. United States, 541 U.S. 615, 628 (Scalia, concurring in judgment)
(citing Moskovitz article and asking, “what rational officer would not take
such measures?”); id. (noting admission in government’s brief that “[t]he
practice of restraining an arrestee on the scene before searching a car that he
just occupied is so prevalent that holding that Belton does not apply in that
setting would largely render Belton a dead letter” (internal quotation marks
16

and ellipses omitted)).
Given this standard practice, it is important that officers know what the
Fourth Amendment does and does not permit. It is in the interest of arrestees
because it will prevent officers from mistakenly violating Fourth Amendment
rights. It is in the interest of law enforcement because it will prevent the
suppression of evidence officers might have obtained in some other, lawful
way, such as by getting a search warrant.

D.

THE DECISION BELOW IS AN ERRONEOUS APPLICATION OF

THE SEARCH INCIDENT TO ARREST EXCEPTION.

While perhaps not the most important consideration guiding this Court’s
decision to grant review, the decision below – and the published opinion in
Cook that it treated as controlling – is also wrong. Gant reaffirmed what this
Court took great pains to establish in Chimel. That is that a search incident to
arrest must be tied to one of two particular underlying purposes – first, the
protection of officers from weapons an arrestee might access, and, second, the
preservation of evidence by preventing an arrestee from destroying or
concealing evidence he might access. In the case of the search of a backpack
or other bag, that makes the key question, “Could the arrestee have accessed
the backpack or bag?”
Under either a fact-based approach or a more general rule, that question
must be answered in the negative here. As a general matter, it should be in
only the most extraordinary circumstances that there can be a search incident
to arrest when a defendant’s hands are cuffed behind his back. Such a search
17

is especially inappropriate when, as here, there are the additional facts that the
defendant was face down on the ground, held down by at least one officer, and
had his ankles shackled in addition to his hands. Only in the most
extraordinary circumstances – to quote Justice Scalia’s quote of Judge
Goldberg supra pp. 12-13, a defendant “possessed of the skill of Houdini and
the strength of Hercules” – could there be a concern that a defendant in this
position might gain access to weapons or evidence in a backpack or other bag.
Such extraordinary circumstances should not be assumed as a general matter,
but must be found to factually exist in a specific case.
And here there were no such factual findings. There was not even an
evidentiary hearing with evidence on which such findings could be based. The
decision below was certainly unjustified without an evidentiary hearing and
factual findings of extraordinary circumstances. If Petitioner was a Houdini or
a Hercules – or there were “acrobatic maneuvers” in which he could engage,
supra p. 12, 15 – there had to be factual findings that he was a Harry Houdini
or Hercules or “acrobatic maneuvers” in which he could engage. And there
had to be an evidentiary hearing on which to base such factual findings.

*

*

18

*

VI.
CONCLUSION

The Court should grant the Petition.

Respectfully submitted,

DATED: August 3 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

19

APPENDIX 1

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 1 of 14

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 27 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

20-10112

D.C. Nos.
1:18-cr-00147-DAD-SKO-1
1:18-cr-00147-DAD-SKO

RAUL ADRIAN TORRES,
MEMORANDUM*
Defendant-Appellant.

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted March 9, 2021
San Francisco, California
Before: McKEOWN, IKUTA, and BRESS, Circuit Judges.
Dissent by Judge McKEOWN
Raul Adrian Torres appeals the district court’s denial of his motions to
suppress and to dismiss. We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

A001

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 2 of 14

A detective with the Fresno Police Department was browsing social media
when he observed a recently uploaded video of Torres posing with a gun at the
house of a local gang member. The detective quickly linked the video to another
social media profile that used the name Adrian Torres. After further investigation,
the detective concluded (mistakenly, as it would turn out) that Torres had an
outstanding warrant for being a felon in possession of ammunition. Officers on
surveillance observed Torres leaving the house with a backpack. Officers exited
the car, identified themselves, and ordered Torres to stop, but he took off running.
Officers gave chase and eventually caught up to Torres, who resisted arrest.
Torres yelled profanities at officers while continuing to resist and fight.
Eventually, officers were able to get Torres under control, handcuffed, and
shackled. One officer asked Torres why he ran. He responded, “[c]ause I have a
gun.” Officers then searched Torres’s backpack and found a firearm with its serial
number scratched off, along with a loaded magazine and additional ammunition.
Torres then stated to officers, “I’m gonna smoke you.”
Officers asked Torres several routine booking questions, during which time
Torres made multiple unsolicited statements about how he wished he would have
used the gun to “shoot it out” with police. Eventually, officers discovered that
Torres was not Adrian Torres, but Raul Adrian Torres, and that he had two
2

A002

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 3 of 14

previous felony convictions for domestic violence, was on felony probation, and
was wanted for another recent domestic violence offense. Officers advised Torres
of his Miranda rights, see Miranda v. Arizona, 384 U.S. 436 (1966), and he agreed
to speak with them. He admitted that the gun was his, that he knew the serial
numbers were scratched off, and that he was on the run “because he didn’t check
into his probation.”
1.

Torres argues that the police lacked sufficient cause to arrest him and

that the district court erred by misapplying Section 148 of the California Penal
Code and by declining to hold an evidentiary hearing. But the record establishes
that the police had sufficient cause for the stop and the arrest. Given the
information they were provided, the officers had “a good faith, reasonable belief
that the arrestee was the subject of the warrant.” Rivera v. Cnty. of Los Angeles,
745 F.3d 384, 389 (9th Cir. 2014). Alternatively, police had reasonable suspicion
to stop Torres based on the social media post and their belief that he was the
subject of an outstanding warrant, see Terry v. Ohio, 392 U.S. 1, 30 (1968); United
States v. Garcia-Acuna, 175 F.3d 1143, 1147 (9th Cir. 1999). Once Torres fled the
attempted Terry stop and then assumed a fighting stance to resist the Terry stop,
Detective Wilkin and Agent Carlos had probable cause to arrest Torres under
Section 148(a)(1) of the California Penal Code. See Velazquez v. City of Long
3

A003

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 4 of 14

Beach, 793 F.3d 1010, 1018–19 (9th Cir. 2015). No evidentiary hearing was
required because, although Torres argues about the legal significance of
uncontested facts, he fails to identify any disputed, material issues of historical
fact. See United States v. DiCesare, 765 F.2d 890, 895 (9th Cir. 1985).
2.

Torres next claims that the search of his backpack violated the Fourth

Amendment, and that therefore the district court erred in declining to suppress the
gun found within it. The search did not violate the Fourth Amendment, however,
because it falls within the search incident to a lawful arrest exception. See Arizona
v. Gant, 556 U.S. 332, 351 (2009). This case is controlled by United States v.
Cook, 808 F.3d 1195 (9th Cir. 2015), which held that the search incident to a
lawful arrest exception applied even though the individual searched was on the
ground in handcuffs when his backpack was searched nearby. See id. at
1199-1200.
3.

Torres also argues that the district court erred in declining to suppress

his statement “[c]ause I have a gun” in response to the officer’s question regarding
“why he ran.” But assuming without deciding that this question is not covered by
the public safety exception to Miranda, see, e.g., Allen v. Roe, 305 F.3d 1046, 1050
(9th Cir. 2002), any error in admitting this statement is harmless, because there is
no reasonable possibility that the erroneously admitted statement contributed to
4

A004

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 5 of 14

Torres’s decision to plead guilty to a violation of 18 U.S.C. § 922(g)(1). United
States v. Lustig, 830 F.3d 1075, 1088–89 & n.14 (9th Cir. 2016).
To convict Torres under 18 U.S.C. § 922(g)(1), the government had to prove
that Torres (1) knew that he possessed a firearm and (2) knew he was a person
“who has been convicted in any court of[] a crime punishable by imprisonment for
a term exceeding one year.” 18 U.S.C. § 922(g)(1); Rehaif v. United States, 139 S.
Ct. 2191, 2200 (2019). In his reply brief, Torres argues for the first time that his
“[c]ause I have a gun” response is prejudicial because it is evidence of the second
element.1 But even if we accept Torres’s characterization of his own ambiguous
statement, Torres’s response does not tend to prove that Torres knew he was a
person “who has been convicted in any court of[] a crime punishable by
imprisonment for a term exceeding one year.” 18 U.S.C. § 922(g)(1). At most,
Torres’s response could be evidence that Torres knew that possession of the
firearm was generally unlawful (because having the firearm motivated him to run
from the police).2 The dissent argues that because Torres’s statement raises the

1

As to the first element, that the defendant knew that he possessed a firearm,
Torres’s statement is duplicative of other evidence in the record. For instance, in
his interview with Detective Martinez after receiving Miranda warnings, Torres
admitted to knowing he was in possession of the firearm.
2

Of course, a defendant’s knowledge that possession of a firearm is
unlawful is not itself an element of a § 922(g)(1) offense.
5

A005

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 6 of 14

inference that Torres “knew it was wrong to have a gun,” this inference then
supports the further inference that the statement “suggests Torres knew” he was a
person “who has been convicted in any court of[] a crime punishable by
imprisonment for a term exceeding one year” under 18 U.S.C. § 922(g)(1). We
disagree. The dissent’s labored and tangled disquisition, relies on a chain of
inferences too attenuated and speculative to raise a “reasonable possibility” that
Torres’s statement contributed to Torres’s plea decision. Lustig, 830 F.3d at 1088
& n.14. To hold otherwise would effectively create the automatic reversal rule
rejected by Lustig and Neder v. United States, 527 U.S. 1, 7 (1999). See Lustig,
830 F.3d at 1089–90.
Torres’s statement also adds little, if anything, to the already substantial
circumstantial evidence that Torres knew his possession of a gun was illegal.3
“[K]nowledge can be inferred from circumstantial evidence.” Rehaif, 139 S. Ct. at
2198 (quoting Staples v. United States, 511 U.S. 600, 615 n.11 (1994)). Torres
took off running when police attempted to stop him, and he admitted in multiple
3

Because Torres’s knowledge that it was illegal for him to possess a gun is
not an element of a § 922(g)(1) charge, our observation that Torres’s “[c]ause I
have a gun” statement adds “little, if anything,” to the evidence regarding this
knowledge does not support the dissent’s argument that Torres would have thought
the admission of this statement would hurt him at trial by showing that he knew he
was a person “who has been convicted in any court of[] a crime punishable by
imprisonment for a term exceeding one year,” 18 U.S.C. § 922(g)(1).
6

A006

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 7 of 14

post-Miranda police interviews that he knew he had a gun, the gun was his, and he
knew he had failed to comply with the terms of his probation and was wanted or
had a warrant out for his arrest. Torres also later admitted that he knew the gun he
had was illegal because its serial numbers were obliterated, and he also said he
knew he was “going to get charged with it.” He has also been convicted of two
prior felonies and has never claimed he was unaware of his felon status. Given all
this evidence, any improper admission of the “[c]ause I have a gun” statement was
harmless.
4.

Torres argues that his statements to Detectives Flowers and Martinez

should have been suppressed or, in the alternative, that an evidentiary hearing was
needed. The statements made to Detective Flowers were admissible under the
routine booking questions exception because Detective Flowers only asked Torres
questions needed to run his information in the police booking system, and these
questions were not reasonably likely to elicit incriminating responses. See United
States v. Williams, 842 F.3d 1143, 1147 (9th Cir. 2016). Any spontaneous
statements made by Torres during these booking questions need not be suppressed.
See Cox v. Del Papa, 542 F.3d 669, 675–76 & n.10 (9th Cir. 2008).
There is also no issue with the post-arrest statements made to Detective
Martinez. Although Torres attempts to analogize this case to Missouri v. Seibert,
7

A007

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 8 of 14

542 U.S. 600 (2004), there is no evidence that a deliberate two-step interrogation
occurred here. Nothing regarding any of the statements made by Torres in this
case mandates an evidentiary hearing. See DiCesare, 765 F.2d at 895.
5.

Finally, Torres claims that in denying his motion to dismiss, the

district court failed to consider a fundamental fairness exception, which provides
that charges may be dismissed if a “breach of [an] agreement rendered a
prosecution fundamentally unfair.” See United States v. Williams, 780 F.2d 802,
803–04 (9th Cir. 1986) (per curiam). Nothing in the record supports the existence
of any agreement made by state prosecutors or the state court, and the state-court
transcript clearly informed Torres that the state firearm case was going to be
dismissed “in light of a federal prosecution.” Because there was no breach of any
agreement, that exception does not apply.
AFFIRMED.

8

A008

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 9 of 14

FILED
United States v. Raul Torres, No. 20-10112
McKEOWN, Circuit Judge, dissenting:

APR 27 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

When Agent Carlos kneed, punched, restrained, and handcuffed Torres,
there was no doubt he was in custody. To its credit, the government doesn’t
disagree. But instead of giving Torres his Miranda warnings, Agent Carlos
launched into questioning. Torres responded with an inculpatory statement that
was instrumental in establishing an element of the charged crime. I respectfully
dissent because Torres was subjected to custodial interrogation without the
required Miranda advisements. The district court erred in failing to suppress the
statement, and this error was not harmless.
The officer’s question—why did you run?—easily falls into the category of
“express questioning” or, at the very least, amounted to “words . . . that the police
should know are reasonably likely to elicit an incriminating response.” Rhode
Island v. Innis, 446 U.S. 291, 300–01 (1980). This was a pointed question aimed
at eliciting an inculpatory response, not a friendly inquiry to see how Torres was
doing nor a casual query about where he was going.
The only issue, then, is whether the public safety exception applies. It does
not. The exception excuses the need for Miranda warnings when “police officers
ask questions reasonably prompted by a concern for the public safety.” Allen v.
Roe, 305 F.3d 1046, 1050 (9th Cir. 2002) (quoting New York v. Quarles, 467 U.S.

A009

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 10 of 14

649, 656 (1984)). The standard is high: “the police must reasonably believe that
there is a serious likelihood of harm to the public or fellow officers.” Id. In
applying this exception, we have often emphasized the non-investigatory nature of
the questioning. See, e.g., United States v. Carrillo, 16 F.3d 1046, 1049–50 (9th
Cir. 1994), as amended (May 17, 1994) (“Our conclusion is buttressed by the noninvestigatory nature of the officer’s question. The question called for a ‘yes’ or
‘no,’ not a testimonial response.”); United States v. Brady, 819 F.2d 884, 888 (9th
Cir. 1987) (applying the exception because, among other reasons, the question was
“not investigatory”).
Though the majority does not reach this issue, I would conclude, without
doubt, that the exception does not apply here both because there was no danger to
the public or to the police that necessitated the question and because the question
was investigatory. Torres was arrested in an alleyway, and there is no evidence
that there were other people in the alleyway at the time of the arrest. The most
telling fact is that the officers do not even assert a subjective perception of
immediate danger when Torres was shackled and handcuffed. Because the
standard requires that the officers “reasonably believe” there is a danger, the public
safety exception simply cannot apply where the officers do not even believe there
was a danger when the question was asked. Allen, 305 F.3d at 1050.
The absence of any perception of danger is underscored by the nature of the

2

A010

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 11 of 14

question asked, which did not seek information to address a public safety threat,
but rather was aimed at eliciting testimonial, inculpatory information. If the
officers were concerned about the gun, they could have asked, “are you armed?”;
“is there a gun?”; “where is the gun?”; or another similar question. But instead
they asked only why Torres ran. That question is framed to elicit an incriminating
response rather than information “necessary to secure [the officers’] own safety or
the safety of the public” especially when, as here, no threat has even been
identified. Quarles, 467 U.S. at 659.
With no public safety justification to fall back on, the custodial interrogation
without Miranda warnings was a violation of Torres’ Fifth Amendment right.
Contrary to the majority’s conclusion, the error in denying the motion to suppress
was not harmless. Our precedent sets a high bar for the government to establish
harmlessness where, as here, the defendant took a conditional guilty plea. The
government must show that there is no “reasonable possibility” that the
erroneously admitted evidence “contributed to [the] decision to plead guilty.”
United States v. Lustig, 830 F.3d 1075, 1088 (9th Cir. 2016) (citation omitted).
This standard is “necessarily hard for the government to meet”—so much so that
“an appellate court will rarely, if ever, be able to determine whether an erroneous
denial of a motion to suppress contributed to the defendant’s decision [to plead
guilty].” Id. (emphasis added) (citation omitted).

3

A011

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 12 of 14

The government does not clear this high bar. Because the statement went
directly to an element of the charged crime, there is more than a “reasonable
possibility” that its erroneous admission contributed to the decision to plead guilty.
Id. The statement that Torres ran because he had a gun establishes that he knew he
was not allowed to have a gun. That is critical evidence because the charged
crime—Felon in Possession of a Firearm, 18 U.S.C. § 922(g)(1)—requires proof
that the defendant “knew he belonged to the relevant category of persons barred
from possessing a firearm.” Rehaif v. United States, 139 S. Ct. 2191, 2200 (2019).
By establishing that he knew it was wrong to have a gun, the statement in turn
suggests that Torres knew he belonged to the category of persons barred from
possessing a gun—in this case people with felony convictions. That the statement
is legally damaging and would have been harmful to Torres at trial is more than
enough to show that it “could have affected [Torres’] decision to plead guilty.”
Lustig, 830 F.3d at 1086.
The majority argues that Torres’ statement does not tend to prove knowledge
of felon status at all. That is a dramatic position to take, especially given the other
evidence that the majority credits as tending to prove knowledge and the longstanding principle that knowledge “can be inferred from circumstantial evidence.”
Rehaif, 139 S. Ct. at 2198 (quoting Staples v. United States, 511 U.S. 600, 615
n.11 (1994)). Admittedly, different inferences might be drawn from the statement,

4

A012

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 13 of 14

but the inference that Torres knew it was illegal for him to carry the gun because
he has a felony conviction is a fair one, and indeed would be enough for a jury to
convict. The evidence easily falls into the category of evidence the prosecutor
could use to establish knowledge. And that’s enough under Lustig, because if the
prosecutor could leverage the evidence against Torres at trial, Torres could
reasonably take a plea in fear of it.
The majority tries to sidestep the import of the statement by arguing that any
value in the statement is merely duplicative of other evidence. But what other
evidence? The only evidence that the majority cites as tending to prove knowledge
of felon status is that Torres knew he was on probation and that he was convicted
of a crime punishable by more than a year of prison.1 Probation does not establish
knowledge of felon status because it is used in California for both felonies and
misdemeanors. See Cal. Penal Code § 1203. And the fact of a conviction
punishable by over a year does not establish knowledge of that type of conviction
because here, Torres was never actually punished by over a year of prison. More
importantly, the Supreme Court has already told us that probation and the fact of a
felony conviction are not enough to establish knowledge. Rehaif explicitly noted
that the crime of Felon in Possession of a Weapon would not apply to “a person
The majority also cites to evidence that clearly establishes that Torres possessed
the gun, but that evidence goes to the first element—possession—not to the second
element of knowledge of felon status.
1

5

A013

Case: 20-10112, 04/27/2021, ID: 12087912, DktEntry: 34-1, Page 14 of 14

who was convicted of a prior crime but sentenced only to probation, who does not
know that the crime is punishable by imprisonment for a term exceeding one
year.” Rehaif, 139 S. Ct. at 2198 (internal quotation marks omitted). Because the
two pieces of evidence relied on by the majority do not establish the necessary
knowledge element, they do not render Torres’ statement duplicative.2
Even if the statement were duplicative, the Lustig standard would still be
met. If there are multiple pieces of evidence probative of an element, it is the
defendant’s prerogative, not ours, to evaluate at what point the evidence becomes
too strong to risk trial: “only the defendant is in a position to evaluate the impact of
a particular erroneous refusal to suppress evidence.” Lustig, 830 F.3d at 1088
(quoting United States v. Benard, 680 F.3d 1206, 1213 (10th Cir. 2012)) (internal
quotation marks and citation omitted).
Because the statement contained evidence of guilt, the prospect of its
admission “could have affected [Torres’] decision to plead guilty.” Id. at 1086.
The district court’s error therefore was not harmless, and for that reason I
respectfully dissent and would reverse.

In passing, the majority also holds Torres’ silence against him as evidence of
knowledge, noting that Torres “has never claimed he was unaware of his felon
status.” But of course that reasoning misplaces the burden; Torres need not prove
his innocence, and his silence on an issue should not be held out as evidence
against him.
2

6

A014

APPENDIX 2

Case: 20-10112, 06/03/2021, ID: 12132492, DktEntry: 36, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 3 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
RAUL ADRIAN TORRES,
Defendant-Appellant.

No.

20-10112

D.C. Nos.
1:18-cr-00147-DAD-SKO-1
1:18-cr-00147-DAD-SKO
Eastern District of California,
Fresno
ORDER

Before: McKEOWN, IKUTA, and BRESS, Circuit Judges.
The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing and rehearing en
banc, and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
denied.

A015

APPENDIX 3

1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
HON. LAWRENCE J. O'NEILL
UNITED STATES OF AMERICA,
Plaintiff,
vs.
RAUL ADRIAN TORRES,
Defendant.

Fresno, California

)
)
)
)
)
)
)
)
)
)

1:18-cr-00147

LJO-SKO

Motion for Discovery
Motion to Suppress
Motion to Dismiss

Monday, January 13, 2020

REPORTER'S TRANSCRIPT OF PROCEEDINGS
APPEARANCES OF COUNSEL:
For the Government:

KIRK E. SHERRIFF & JESSICA A.
Assistant U.S. Attorneys
2500 Tulare Street, Rm. 4401
Fresno, California 93721

For the Defendant:

WANGER JONES HELSLEY PC
265 E. River Park Circle, Suite 310
Fresno, California 93720
BY: PETER M. JONES, ESQ.

REPORTED BY:

MASSEY

RACHAEL LUNDY, CSR, RPR, Official Reporter

Proceedings recorded by mechanical stenography, transcript
produced by computer-aided transcription.

A016

2

1

Monday, January 13, 2020

2

12:49 p.m.

3
4
5
6

THE COURT:

All right.

United States versus Raul

Torres.
MR. SHERRIFF:

Is Mr. Torres being brought out, or is

he not here?

7

MR. JONES:

8

MR. SHERRIFF:

9

THE COURT:

10

Fresno, California

He's here.
I would note --

No, he's here.

MR. SHERRIFF:

There's been a superseding indictment,

11

and we do need to arraign Mr. Torres on his superseding

12

indictment at some point.

13

THE COURT:

14

MR. SHERRIFF:

15

What does the superseding indictment do?

indictment, it's the 18 U.S.C. 922(g)(1) count --

16

THE COURT:

17

MR. SHERRIFF:

18
19
20

It simply corrects the one count

Right.
-- to reflect the Rehaif language, the

Supreme Court's language of the Rehaif as to knowledge.
THE COURT:

All right.

Let the record reflect that

Mr. Torres is here as well.

21

Did you give me your appearances?

22

MR. JONES:

23
24
25

No.

Peter Jones for Raul Adrian Torres,

who is present in court.
MR. SHERRIFF:

Kirk Sherriff and Jessica Massey for

the United States, Your Honor.

Good after --

A017

3

1

MR. JONES:

Good afternoon?

2

THE COURT:

I would say, it can't be morning still.

3

All right.

Let's proceed with the arraignment on the

4

superseding indictment.

5

All right, Mr. Jones.

6

MR. JONES:

7

Okay.

8

THE COURT:

Okay.

9

MR. JONES:

We've received a copy of the superseding

Yes, one moment.

We're prepared to proceed.

10

indictment in this case.

11

this time and further advisement of statutory or

12

constitutional rights, enter a plea of not guilty, denying the

13

allegations set forth therein.

14

date.

15

THE COURT:

We waive a formal reading of it at

All right.

And we already have a trial

Now, let's proceed to the

16

motions.

17

filed by the defense, the government's response with the

18

attachments, including declarations, photographs, reports, and

19

probation conditions.

20

The Court has received and reviewed the motions

The defendant's motions are three.

And number 1 is

21

the motion for discovery, the standard Rule 16 Brady material

22

request.

23

Amendment violation regarding search and seizure.

24

Amendment Miranda violations, that the defendant was arrested

25

by the officers who thought that he was a different person

Number 2 is to suppress based on the Fourth
And Fifth

A018

4

1

with a warrant.

2

response to the pre-Miranda advisement in violation according

3

to the motion.

4

And also post arrest statements given in

Third motion is motion to dismiss the indictment

5

based on a prosecutorial agreement in the superior court that

6

the current charges would be dismissed for an admission to a

7

probation violation, that resulted in four additional years in

8

prison.

9
10

The government's responded to each one of those and
concedes nothing.

11

You, I believe, Mr. Jones, had indicated you wanted

12

some additional oral argument.

13

Office had indicated they didn't need further oral argument.

14

So what, in addition to that which you've provided,

15

I believe the U.S. Attorney's

do you want to tell me?

16

MR. JONES:

Well, I would like to, in this oral

17

argument, reply to the government's response, because I think

18

there are some cases they've cited that are very

19

distinguishable, are important to a full understanding of our

20

motions.

21

I believe that an evidentiary hearing should be

22

ordered.

23

I'll be as brief as possible, but there are certain points I

24

feel I need to cover and put on the record.

25

I would like to start with the motion to suppress.

THE COURT:

And remember, I have read what you've

A019

5

1

submitted so far.

2

MR. JONES:

Yes, and I understand that.

I'm -- and I

3

may repeat what is said there foundationally to support the

4

argument I want to make regarding distinguishing certain

5

things.

6

THE COURT:

I'll let you know, if do you.

7

MR. JONES:

Well, thank you.

8

I'm going to start out with a repetition, and that is

9

that Officer Wilkin clearly either erroneously or

10

intentionally misrepresented in his police report that he was

11

advised that the defendant, Raul Adrian Torres, was the

12

individual that had been identified on Snapchat and that he

13

had a warrant out for his arrest and that he was on felony

14

probation.

15

And I think the Court even mentioned this in its

16

introductory statement that it was a case of mistaken

17

identity, and the U.S. Attorney indicated it was a case of

18

mistaken identity.

19

However, I would like to submit -- I would have done

20

this in reply, however, in moving this to Monday -- I handed

21

Mr. Sherriff a copy of this exhibit this morning, but the Hill

22

case that the prosecution cited regarding mistaken identity,

23

Hill vs. California, a rather old case --

24
25

THE COURT:

Counsel, could I ask you, I need a

five-minute recess because another judge is needing something

A020

6

1

now.

And I will be -- it will be no more than five minutes, I

2

promise.

3
4

MR. JONES:

Thank you.

(Recess held.)

5
6

Five minutes.

THE COURT:

All right.

Back on the record.

I'm

sorry.

7

Go ahead, Mr. Jones.

8

MR. JONES:

9

As I was saying, when Officer Wilkin and Officer

10

Carlos took over for Officer Martinez, and he sent them a

11

picture, he believed the individual in the house was

12

Adrian Torres, who was eight years older than my client, had a

13

warrant out for his arrest, who was on felony probation.

14

Thank you.

Then Officer Wilkin wrote in his report that he was

15

informed it was Raul Adrian Torres, which could not have

16

possibly occurred, because as Officer Martinez himself later

17

said, he didn't know it at that time -- at that time he was

18

notified.

19

So they had a mistaken belief that the defendant was

20

Adrian Torres, eight years older, had a warrant out for his

21

arrest, and was on felony probation.

22

Based on that, when he exited the house, yes, he did

23

appear to be the individual in the Snapchat photo.

He did --

24

he had the beanie on, and -- but they were basing their

25

approach to him on there's an arrest warrant out.

He can be

A021

7

1

arrested immediately.

There's a warrant out for his arrest.

2

Now, they were undercover in an unmarked car, and the

3

first approach was not anywhere near what you consider a Terry

4

stop.

5

and "stop."

6

It was pointing a gun at him and the yelling, "Police,"

Now, the U.S. Attorney made emphasis that the back of

7

the vest that Officer Wilkin was wearing said "MAGEC" on it.

8

But obviously, if my client is walking down the street, and

9

someone yells for him to stop, and turns around and sees a gun

10

and a plainclothes individual, in another unmarked car,

11

plainclothes individual, and he turns to run, he's not going

12

to see something emblazoned on the back of a vest.

13

And this clearly exceeded a Terry stop.

It was an

14

attempt to execute an arrest warrant that they believe they

15

had.

16

Now, Mr. Sheriff has cited to the Court Hill vs.

17

California.

18

case Delgadillo -- U.S. vs. Delgadillo-Velasquez, a Ninth

19

Circuit Court of Appeal case, 856 F.2d 1292, emphasized that

20

in Hill, the information the officers had was that Hill was

21

inside of the house.

22

there, the individual that answered the door looked exactly

23

like Hill.

24
25

I would note in Hill vs. California, a subsequent

Exactly.

It was Hill's house.

And when they went

And it has to be a reasonable mistake.

Here, Officer Martinez -- Detective Martinez said
that he looked at the Snapchat video, of course, but he also

A022

8

1

researched the defendant's Facebook, and there were pictures

2

of the defendant there.

3

pictures of the defendant, and our Exhibit A1 has those

4

pictures.

5

And in fact, we were provided other

And clearly, if even a cursory attempt to determine

6

if this, in fact, was the individual in the Snapchat photo,

7

and Adrian was viewed, Adrian Torres, on the right side of his

8

neck front, has red lips tattooed.

9

closely over his right forehead.

10

He has a prominent tattoo

And that was from a prior

booking photo.

11

Mr. Torres' Facebook and Snapchat was from very

12

recently.

13

ruled out.

14

He does not have those tattoos.

He could have been

Adrian Torres was, with the warrant, with the felony

15

probation status, could have been ruled out immediately.

16

don't believe Hill vs. California rescues that argument by the

17

prosecution.

18

We

And we believe that we have submitted enough

19

confusion over what information was provided, and -- for

20

example, my client, when Detective Flowers says he was making

21

spontaneous statements, said he didn't know they were

22

officers.

23

officers, I might have shot it out with them or shot myself."

24

I don't know.

25

wasn't as obvious as they maintain it must have been under the

He made that spontaneously.

"Had I known they were

But he didn't know they were officers.

It

A023

9

1

circumstances presented.

2

As far as the Miranda -- cutting to the chase -- he

3

was handcuffed and placed under arrest.

4

asked -- and to me, this is an interrogation -- "Why did you

5

run?"

6

he did give an incriminating response according to

7

Officer Carlos.

8

have a gun."

9

And then he was

That invites a potentially incriminating response, and

And that response allegedly was, "Because I

All other statements were within a very short period

10

of time within that.

11

other questions about.

12

further questioning or interrogation by Detective Carlos or

13

Officer Wilkin.

14

I don't know how many other -- there are
There's a big question about any

But we know this, apparently Officer Flowers then

15

questioned him, does not advise him of his Miranda rights, is

16

questioning him about who he is, and then he supposedly makes

17

these spontaneous statements.

18

And then, Detective Martinez questions him and

19

finally advises him of his Miranda rights.

20

already had a number of statements starting with the

21

non-Mirandized statement from Agent Carlos regarding whether

22

or not he had a gun.

23

statements are -- should be excluded because of the Miranda

24

violation.

25

But by then, we've

So our argument is that all of his

And I also would submit that there is enough

A024

10

1

information provided to the Court to order an evidentiary

2

hearing here to clear the air on all these issues; who said

3

what when, who asked what when, what information went over to

4

the detectives.

5

suppress.

And that's our position on the motion to

6

And I'm trying to expedite for the Court's benefit.

7

The -- oh, I should have mentioned, too, though, I

8

stand by our argument under the Robey case, that once he was

9

placed in handcuffs and leg restraints he could not access the

10

handbag.

11

other items that a search warrant after arrest could easily be

12

obtained, should have been obtained, and could have been

13

obtained.

14

It's the equivalent of the luggage and cell phone or

And that the gun should be suppressed not only

15

because it was an illegal detention, it wasn't a Terry stop,

16

an unlawful arrest, they didn't know he was on felony

17

probation at the time of his arrest; he did not have a warrant

18

out for his arrest.

19

But a further ground to exclude the gun would be

20

illegal search of the backpack without a warrant.

The

21

discovery issue, we believe, that the -- that based on the

22

information we've provided to the Court, the information that

23

is in the police reports were Detective Wilkin claims that

24

Officer Martinez told him one thing.

25

absolutely couldn't, didn't, and even himself wrote in his

And we know he

A025

11

1

report that he hadn't.

2

notes and internal communications regarding what was provided

3

by who, when.

4

It opens up the door to memos and

And so I think we do have a prima facie case.

Mr. Sherriff said there was no prima facie basis to

5

go beyond Rule 16 or Brady, and we believe we've submitted

6

sufficient evidence to the Court.

7

On the motion to dismiss, finally, I wanted to have

8

oral argument, because I believe Gamble is very

9

distinguishable from our case.

10

In the Gamble -- of course very recent -- 72 U.S.

11

Supreme Court decision on double jeopardy, Mr. Gamble was

12

prosecuted initially in Alabama State court.

13

and received 12 -- he had a prior robbery conviction.

14

guilty to felon in possession of a gun.

15

12 months sentence.

16

He pled guilty
He pled

He got -- he received

After that, he was indicted by the U.S. Attorney's

17

Office, and that never came into play at all during his state

18

prosecution.

19

total of 58 months on that felon in possession charge between

20

his state sentence of 12 months and his federal sentence of

21

46 months.

22

He received 46 months.

So Mr. Gamble received a

In our case, the federal charge had been filed.

23

complaint had been filed.

24

the state case was still pending.

25

filed.

The

At the time this case was resolved,
The federal charge had been

And Mr. Torres came to court, and it was on the record

A026

12

1

from the D.A., but only briefly and vaguely.

2

really ever articulated that where the D.A. says, "We're

3

dismissing the 2018 DV case based on his admission to the VOP;

4

and we're dismissing the firearm case, based on the federal

5

prosecution."

6

they were dismissing both cases because of his admission to

7

the violation and his agreeing to accept four additional years

8

on that case he was on probation for.

9
10
11

And it's never

That's after the Court advised Mr. Torres that

So the prosecutor makes that one brief comment,
after -- his attorney never says anything.
After that, the Court says two more times on the

12

record, "So you understand, both of your cases are being

13

dismissed because you're admitting violating probation and

14

taking the four years?"

15

says after the fact of this one brief comment by the D.A.

16

D.A. never brings it up again, never comments on it.

17

attorney never comments on it.

18

That's the gist of what the Court
The

His

The minute order reflects in the minute order that

19

the firearm case is being dismissed in light of his admission

20

to the violation of probation.

21

old, has no legal training, and he's being informed by the

22

Court, his attorney's silent, and -- that these cases are both

23

being dismissed.

24
25

That's what -- he was 20 years

And we cited for the Court the case of Cooper.
think it's a Fourth Circuit case.

I

But in Cooper, regarding

A027

13

1

plea bargaining, Cooper v. United States 594 F.2d 12,

2

regarding plea bargaining, the Court held that, we begin by

3

noting that two distinct sources of constitutional rights are

4

involved here.

5

Most obviously and directly, the right to fundamental

6

fairness embraced within substantial due process guarantees.

7

Less directly, perhaps, but nonetheless importantly

8

the Sixth Amendment right, the affective assistance of

9

counsel.

10

And those are the rights we are asserting here, not

11

just double jeopardy.

12

Hinsburg were very persuasive.

13

Although I think Justice Gorsuch and

But our point is the due process, the right to

14

fairness and plea agreements and plea bargaining, and what

15

you're led to believe.

16

I know Mr. Sherriff says, Well, how could you

17

possibly think that four years is going to be enough time or

18

dismissal of two cases would be the result of your admitting

19

probation and taking four years?

20

Interestingly, Mr. Torres actually has done

21

58 months, exactly what Mr. Gamble got his gun charge on that

22

one DV case.

23

This was -- this was not something that was rare or

24

unusual.

There had been some discussions about running these

25

concurrent, and substantially less time he would have been

A028

14

1

facing.

2

So to be told accepting four years after having

3

already waived almost ten months was his understanding that,

4

This is resolving my cases.

5

20 years old, and being advised that this is the end of the

6

case.

7

and told, You can get ten years consecutive in addition to the

8

four years you just agreed to take, thinking it was going to

9

resolve everything.

He had never been to prison.

And

Instead, turns around, brought over to federal court

10

So I think this in a sense of, as Cooper talked

11

about, the due process clause, and the Sixth Amendment that,

12

in my opinion, were not effectively dealt with, that the

13

federal charge should be dismissed on constitutional grounds.

14

And we believe there could be an evidentiary hearing on that.

15

I did correspond with his prior counsel, which was

16

very ineffectual in terms of what was remembered or not

17

remembered or done asking for 90-day diagnostic and

18

transcripts and never getting them.

19

the record we have, and Mr. Torres' understanding that that

20

was his reasonable understanding of how the cases were being

21

handled; it could have gone concurrent.

22

instead.

23

the four years.

24
25

But I believe based on

They got dismissed

He still took the four years, and he's still doing
So --

THE COURT:

What about the issue of the discovery?

Did the government's response take care of that for you?

A029

15

1

MR. JONES:

The government has been providing

2

additional discovery in anticipation of trial.

3

was, "We didn't make a prima facie case to justify producing

4

everything we wanted in terms notes and communications,

5

interagency communications regarding this case to get to the

6

bottom of why there are dramatically different statements in

7

the police reports regarding what they did have or didn't have

8

or didn't know."

9

Their response

We never got that Snapchat, that picture.
We never -- that's not even Bates-stamped.

We had the

10

video.

It's an

11

exhibit that we finally got when we filed this motion.

12

THE COURT:

So --

13

MR. JONES:

My answer would be we would still like to

14

have an evidentiary hearing and have these notes provided.

15

THE COURT:

All right.

16

MR. SHERRIFF:

Mr. Sherriff?

Your Honor, I'm going to address the

17

motion to dismiss and the discovery aspect.

18

going to address the suppression motion.

19

Court wants to proceed.

I don't know how the

20

THE COURT:

21

MR. SHERRIFF:

22

The federal government was not party to the plea

23

I don't care.

And Ms. Massey is

It's whatever.

So I'll address the motion to dismiss.

agreement in state court.

24

THE COURT:

True.

25

MR. SHERRIFF:

And Gamble is dispositive of that.

A030

16

1

The fact that the defendant -- I mean, in Gamble, as the

2

defendant -- as Mr. Jones just pointed out, Gamble was

3

successfully prosecuted in state court on a gun charge,

4

convicted and sentenced, and then the federal government

5

prosecuted him for the same conduct.

6

And the Supreme Court said that's exactly what's

7

allowed under the Double Jeopardy Clause.

8

sovereigns.

9

There's dual

That is permissible.

He's complaining here because in state court, his gun

10

case was dismissed.

11

the transcript of his state court proceeding that it was being

12

dismissed in light of a federal prosecution.

13
14
15

THE COURT:

And the Deputy D.A. put on the record in

If you're arguing double jeopardy, double

jeopardy does not apply.
MR. SHERRIFF:

Right.

And I believe that's the only

16

basis that would really have any legs here, and it's been

17

specifically rejected by the Supreme Court.

18

We were not party to the state court plea.

The

19

Deputy D.A. put on the record that that state court dismissal

20

as to the gun charges and the gun case were that case was

21

being dismissed in light of federal prosecution.

22

the record that the other case, the domestic violence -- the

23

new domestic violence charge in state court, was being

24

dismissed in light of the defendant's plea to a probation

25

violation on a prior domestic violence conviction, and noted

And put on

A031

17

1

those by case numbers separately so it was clear on the

2

record.

3

Now, the Court in state court appropriately dismissed

4

the two new filed cases and sentenced him on the probation

5

violation.

6

But that's exactly what is reflected on the record as

7

the understanding of what would be done, that one was being

8

dismissed in light of the federal prosecution, the other was

9

being -- the new domestic violence case was being dismissed in

10

light of the probation plea.

11

To the extent he's alleging that there was some sort

12

of fundamental unfairness or ineffective assistance of counsel

13

in his state court plea, we don't believe that's reflected in

14

the transcript or in the minutes, which the defendant has put

15

in.

16

address in state court with respect to pleadings in state

17

court, with respect to his state court plea on the probation

18

violation.

19

proceeding in federal court.

But if it was the case, that's a matter for him to

It's not a matter that has any bearing on this

20

And I have noted to Mr. Jones that to the extent

21

there's any relevance to the sentence that he received on

22

probation violation, that's something he's certainly entitled

23

to bring up in sentencing before this Court.

24

think it has relevance as to his sentence were he to be

25

convicted in this case.

Again, I don't

But because, essentially, what the

A032

18

1

defendant is saying is that he thought that his sentence of

2

four years on a probation violation, for which he was given a

3

pass on his new domestic violence charge, also gives him

4

perpetual immunity from every sovereign for his criminal

5

conduct that is the subject of this federal case.

6

never been prosecuted ultimately anywhere and won't be other

7

than here as far as we understand.

8
9

THE COURT:

That's

What is your position with regard to the

discovery?

10

MR. SHERRIFF:

So we have provided -- first of all, I

11

note that the reports -- the police reports do reflect some

12

confusion as to Officer Martinez indicating that he initially

13

believed the defendant was Adrian Torres for the reasons laid

14

out in his report, and conveyed that to the officer on the

15

scene along with the photo of the defendant from the Snapchat

16

video.

17

We -- and then Officer Wilkin's report indicates that

18

he believes he heard "Raul Adrian Torres."

There's obviously

19

some confusion there, but the core of it, as addressed in the

20

suppression motion, is that they -- the core understanding of

21

this defendant was the individual exiting the residence.

22

was the in -- the same individual who's depicted in the video

23

with the gun, and that he was -- the belief he was subject to

24

arrest or search based on probation status, and/or a warrant,

25

that's the same.

It

And the difference is that there's an

A033

19

1

initial name.

2

What I would say is, we have asked officers for the

3

screenshot that was taken from the Snapchat video.

They do

4

not appear to have the specific screenshot that was sent.

5

We're trying to inquire with Fresno Police Department if

6

there's a mechanism for preserving any communication like that

7

in the form of a text or however that was sent.

8

obtain that, we will; or if Mr. Jones wants to be party to

9

that conversation, we were -- we'll talk to him about that.

And if we can

10

But we're going to try and obtain anything the Fresno Police

11

Department has independent of the officers.

12

But in any event, we've produced the entire video and

13

the officer -- Officer Martinez has clarified that while he

14

can't say exactly which screenshot from the video he sent at

15

that time to Officer Wilkin, it was one of the screenshots

16

that the defense has, because they have the entire brief

17

Snapchat video -- which is not very long.

18

seconds -- and one of those screenshots depicting the

19

defendant with the his face visible and a gun in his hand was

20

sent.

21

It's a matter of

And second, we have had asked whether there were --

22

officers had any other communications, and we have not been

23

provided any.

24
25

We're not aware of any.

We've produced to Mr. Jones what we have, and we'll
continue to produce any other Jencks-type statements or

A034

20

1
2

certainly give Brady if we come into -- if we acquire.
THE COURT:

One thing I'm concerned about with regard

3

to the motion to discover, while you may have provided

4

everything that you have and provided everything that is

5

required of you by rule and statute and case law to date, I'm

6

concerned if we get to the date of trial, and that's when you

7

have the rest of it, or that's when you produce the rest of

8

it, that there's going to be an immediate motion to continue

9

the trial based on the fact that they haven't had a chance to

10

review it and do further discovery on it.

11

What's your response to that?

12

MR. SHERRIFF:

So our response is we've asked

13

officers if there's any other communications, and they don't

14

have any, has been the response.

15

And what we have reached out to -- independently,

16

we've reached out to County Counsel for Fresno Police

17

Department to determine whether any communication would have

18

been saved.

19

THE COURT:

20

MR. SHERRIFF:

21
22

All right.
So we're trying to determine through

that route also.
It may, essentially, be just this one photo, which is

23

reflected in the reports as having being sent.

And it's

24

clarified in Officer Martinez's declaration, it was a

25

screenshot of the Snapchat video.

A035

21

1

So to be clear, we've produced the entire Snapchat

2

video, which is somewhere in the order of 15 seconds long,

3

approximately 15-20 seconds long.

4

One of the screens on that brief video was what was

5

sent.

6

we've complied with the discovery obligations by producing the

7

entire video and having the officer clarify the nature of what

8

was sent.

9

We just don't have that exact screenshot, but I think

THE COURT:

All right.

Ms. Massey?

10

MS. MASSEY:

Thank you, Your Honor.

11

Your Honor, to begin, I just want to clarify.

As I

12

indicated in my response to the defense's motion that the

13

defendant was not seized or arrested until officers finally

14

caught up with him and had their hands on him, the case law is

15

very clear that until that point, whether they place hands on

16

an individual, or the individual succumbs to their indications

17

of authority, that he is not seized.

18

start at that point.

19

So I think we need to

Working backwards from there, as Your Honor is well

20

aware, the Court needs to look at the totality of the

21

circumstances to determine whether or not officers were

22

reasonable in their suspicion of the defendant.

23

And in this particular case, the facts, although

24

there's some confusion about the defendant's identity, I think

25

looking at the totality of what officers reasonably believed

A036

22

1

at the time, it's very clear they were warranted in at least

2

stopping him to have a conversation with him.

3

And additionally, based on what sort of transpires

4

during this period of time, that's compounded and results in

5

there being a probable cause to arrest him.

6

So at the time, Your Honor, officers reasonably

7

believed that the defendant was a felon in possession of a

8

firearm.

9

Martinez witnessed clearly shows the defendant holding a

The video that they were witnessing that Detective

10

firearm.

11

believed the defendant was another individual by a very

12

similar name, similar height, weight, et cetera, believed that

13

individual to be a convicted felon who was on probation and

14

had a warrant out for his arrest.

15

He did some research on his own, went onto Sharenet,

So at that point in time, that information, coupled

16

with the fact that they see the defendant in the video with a

17

firearm, gives them much more than reasonable suspicion to

18

stop him, have a conversation.

19

THE COURT:

So if you're arguing reasonableness,

20

obviously, you're asking the Court to make a determination

21

that the officers, based on what they saw, based on what they

22

thought was reasonable; correct or not correct?

23

MS. MASSEY:

24

THE COURT:

25

Correct.
How can that not be the basis for an

evidentiary hearing?

A037

23

1

MS. MASSEY:

Well, Your Honor, I think that the

2

reports are ironically clear in their confusion, if that makes

3

any sense.

4
5

So Detective Martinez says, "This is the information
that I had, and this is what I relayed to Sergeant Wilkin."

6
7

Sergeant Wilkin says, "This is what I believe I heard
from Detective Martinez."

8

I don't think an evidentiary hearing is going to

9

provide the Court with any additional articulation beyond

10

that, because it seems clear that the officers -- that there

11

was some confusion in the communication between the two.

12

I don't believe that an evidentiary hearing is going to

13

clarify that.

14

THE COURT:

And

Well, how do I know whether that's true

15

or not?

I understand how you feel, but how do I know whether

16

that's true or not, whether --

17

MS. MASSEY:

Well, Your Honor, the government

18

submitted declarations with its response, and each of the

19

officers involved provided a declaration under penalty of

20

perjury.

21

THE COURT:

Yes, but there was no opportunity for

22

defense counsel to ask probing questions with regard to their

23

assertions and stated reasonable feelings; right or wrong?

24

MS. MASSEY:

25

THE COURT:

Correct.
Okay.

A038

24

1

MS. MASSEY:

To continue, Your Honor, officers at the

2

time had reason to believe felon in possession of a firearm.

3

He walked out of the same address, wearing the same

4

clothing --

5

THE COURT:

You don't have to go there.

I agree, at

6

least initially.

7

contact with him, then that may or may -- should have changed

8

as to whether or not they had the right one or not.

9

What happened after, there was actual

But certainly, going after him with what they had was

10

absolutely reasonable.

11

reasonable mistake to make.

12

MS. MASSEY:

They made a mistake, but it was a
I don't need argument on that.

So at the time that officers did finally

13

catch up with the defendant, rather than submit to their

14

orders for him to stop, he decided to physically assault the

15

two officers who were attempting to stop him.

16

At that point, Your Honor, it's clear that in

17

addition to the reasonable suspicion, they now had probable

18

cause to arrest him on charges involving obstructing and

19

assaulting those police officers.

20

THE COURT:

21

MS. MASSEY:

True.
So at that point in time, the defendant

22

is placed under arrest.

They finally confirm what his

23

identity is, which although he's not the individual they

24

thought him to be, he has nearly identical characteristics.

25

He's a felon, he's on probation, and there was a warrant in

A039

25

1

the system for him for another felony domestic violence

2

incident that had taken place weeks prior.

3

At that point, the officers had the P.C. to arrest

4

him.

The search of his bag was incident to that arrest.

5

even if it weren't, inevitably that -- the contents of that

6

bag would have been discovered when the defendant was booked

7

into the Fresno County Jail.

8
9

And

With regard to the statements that the defendant made
to Special Agent Carlos, those were voluntary, spontaneous

10

statements.

11

defendant about why he ran was not designed to elicit an

12

incriminating response, but rather, was to figure out what was

13

going on.

14

The question that Agent Carlos asked the

The officers didn't know at that time why the

15

defendant was running.

16

house, perhaps there was an injured party there.

17

know that.

18

Perhaps something had happened at the
We don't

So to ask that question is completely reasonable.

THE COURT:

It's certainly reasonable for the officer

19

to ask the question, because it's -- the answer is important

20

to know.

21
22

But are you saying that the officer shouldn't have
known that that might elicit an incriminating statement?

23

MS. MASSEY:

24

THE COURT:

25

I believe -"I just pulled a robbery, that's why I'm

running," I mean, that's certainly one of the answers that

A040

26

1

could have occurred.

2

And another one is the one he gave, "Well, I didn't

3

want you to catch me with the gun that I have in my pocket."

4

Absolutely, it was important for the officer to know

5

the answer to the question.

6

a Fifth Amendment issue?

7
8
9

MS. MASSEY:

I think the Court needs to look to the

intent behind the officer's question.
THE COURT:

10

evidentiary hearing?

11

MS. MASSEY:

12

But how could that not have been

And how do I do that without an

Perhaps the Court can't do that without

a hearing.

13

THE COURT:

That's the problem.

14

Anything else?

15

MS. MASSEY:

With regard to additional statements the

16

defendant made, statements to Officer Flowers were similarly,

17

voluntarily and spontaneous.

18

do not need to Mirandize an individual in order to ask

19

questions regarding that individual's identification and

20

background.

Case law is clear that officers

21

THE COURT:

Agreed.

22

MS. MASSEY:

23

And with regard to statements made post-Miranda to

All Officer Flowers did was that.

24

Detective Martinez, the Court needs to, again, look at the

25

totality of the circumstances to determine voluntarily,

A041

27

1

knowingly, or intelligently made statements.

2

The defendant here was an adult male, English

3

speaking, had numerous prior contacts with law enforcement,

4

and prior convictions on his record.

5

rodeo.

6

Miranda rights from the officer's Miranda card.

7

speak with the officer and said he understood those rights.

8

And very tellingly, he knew when he didn't want to answer

9

questions from Detective Martinez.

This was not his first

He was listening to the officer as he was read his
He agreed to

He freely spoke about his

10

gang affiliation, where he got the gun, et cetera; but when it

11

came to the point where Detective Martinez asked him who he

12

purchased that firearm from, the defendant exercised his right

13

to be silent.

14

So all that going together, Your Honor, leads to a

15

very clear totality that the defendant voluntarily, knowingly,

16

and intelligently made those statements to Detective Martinez.

17

Unless the Court has questions.

18

THE COURT:

19

Under these circumstances of having officers make an

I have a question for defense counsel.

20

error as to what person that they were chasing, and assuming

21

that the Court does find reasonableness in the mistaken

22

identity, once he started running and they got to him and they

23

were yelling "police, stop," and he did not stop, he -- he

24

says he didn't apparently -- he hasn't testified of course,

25

but he's -- your client is assuming -- assuming he is saying

A042

28

1

that he didn't believe it was the police, or he didn't know

2

for sure it was the police.

3

probable cause at that point to arrest for obstruction at

4

least to 148 of the Penal Code, and under those circumstances,

5

they were going to pat him down for sure and take him in.

6

That gun was going to be found; wasn't it?

Now the officers had, certainly,

7

MR. JONES:

Well --

8

THE COURT:

So while the issue of whether or not the

9

answer comes in that he was -- that he should have been

10

Mirandized when asked, "Why did you run?"

11

Now they know he has a gun, but they're going to know that

12

anyway.

13
14

"I have a gun."

So where's the harm?
MR. JONES:

Well, foundationally, assuming what the

Court is saying, that they had a reasonable belief --

15

THE COURT:

I said "if."

I said "if" --

16

MR. JONES:

"If," if they had a reasonable belief,

17

under the Hill case, then they are making arguably -- I think

18

this is still subject -- I would go into it in an evidentiary

19

hearing.

20

this individual, they think he -- reasonably think he has a

21

warrant out for his arrest, then they have a right to follow

22

him and arrest him for the warrant, and for -- if he

23

resisted -- for resisting.

24
25

But arguably, if they know that he has a -- that

Of course I think, as the prosecution indicated, they
at least had reason to stop him for and -- conversation

A043

29

1

purposes, to find out if he had a gun based on the Snapchat

2

video and the circumstances.

3

They --

4

THE COURT:

But that's not what they did.

They weren't pulling him -- they weren't

5

trying to question him to see if he had a gun.

6

they thought they knew who that was.

They were --

7

They were wanting him to stop so they can confirm who

8

he was and to see if he was the guy who had the arrest warrant

9

out.

10

MR. JONES:

Right.

But they did it by pointing a gun

11

at him.

12

walking down the street.

He looks back, and he sees the gun,

13

someone in plainclothes.

He told Officer Flowers later, "I

14

didn't know they were officers."

15

They're in plainclothes, point a gun at him.

He's

So that's not the best approach when you're basing a

16

detention or stop-and-frisk on a reasonable suspicion, as they

17

did in Terry vs. Ohio.

18

THE COURT:

They believed he was the person that they

19

were after and felt that he was probably armed if it was the

20

right person.

21

that unreasonable approach?

22

And so from the officers' standpoint, why is

MR. JONES:

Well, I'd say they had a right to believe

23

he might possibly be armed based on a totality of the

24

circumstances.

25

Both individuals in this Snapchat video traded off

A044

30

1

inside the house holding this gun.

2

much longer later.

3

house.

4

might be armed and might want to stop and frisk him.

5

that's not what they did.

6
7

One, two hours later is when he exited the

So they certainly could have the suspicion that he

THE COURT:

No.

But

They didn't do that, because he

didn't stop.

8
9

He exited I don't know how

MR. JONES:
said, "Stop.

Well, no.

They pointed a gun at him and

Stop" --

10

THE COURT:

Yes, they --

11

MR. JONES:

They didn't say, "Hey, we'd like to ask

12

you a few questions.

13
14

We're police.

We have our badges."

And they yelled, "Stop," pointed a gun at him.

They

were executing a warrant, I think, on the wrong guy.

15

THE COURT:

Well, they were certainly detaining him

16

with some force to find out.

17

MR. JONES:

Right.

18

THE COURT:

When they tried to do that, he took off.

19

MR. JONES:

Right.

20

THE COURT:

So the officers had a right to certainly

21

say what they said, do what they did.

And if it happened to

22

be the wrong guy, and he had nothing else going, they would

23

have let him go.

24

someone that he wasn't or for possessing a gun that he didn't

25

have.

They wouldn't have arrested him for being

A045

31

1

So we have a situation where the officer did what he

2

believed was reasonable.

3

find that it's not reasonable to do that.

4
5
6
7

MR. JONES:

There's no legal reason why I could

If he had a warrant out for his arrest,

or if he was known -THE COURT:

Well, if he was the person that they were

seeking who had the warrant out for his arrest.

8

MR. JONES:

Right.

9

THE COURT:

But they certainly had a right to stop

10

him and detain him to find out if he was the person under

11

these circumstances.

12

MR. JONES:

And that's my point, I guess, to stop him

13

and frisk.

14

circumstances.

15

where you point a gun at someone's head and say, "I want to

16

stop and frisk you."

17

probable cause.

18

I could understand that based on the totality of
And Terry doesn't contemplate a situation

It's reasonable suspicion versus

And that's my point, that they, believing they had a

19

warrant out for his arrest, he was somebody else.

20

use the level of force that they used, which triggered his

21

running and led to his ultimate seizure.

22
23

THE COURT:

They could

That's more of a 1983 argument in a civil

matter; isn't it?

24

MR. JONES:

Uh --

25

THE COURT:

The amount of force, whether or not it

A046

32

1

was -- but the amount of force the officers used does not

2

negate their right to stop him and inquire and make sure that

3

he is -- is or is not the person that they're seeking.

4

just as a result of what they did do, he, your client, reacted

5

in a way of escape, and it turned out to be probable cause.

6

He created probable cause for a 148 arrest.

7

It's

And once that occurred, they were going to find the

8

gun whether he admitted it or not, whether they asked the

9

question that could have been in violation of Miranda or not.

10

They're going to find the gun.

11

it.

They're not going to suppress

12

MR. JONES:

Well, if it's an illegal arrest --

13

THE COURT:

Where's the illegal arrest?

14

MR. JONES:

The illegal -- at the time they arrested

15

him, they thought he was Adrian Torres on felony probation

16

with a warrant out for his arrest.

17

THE COURT:

But they certainly knew that whoever this

18

guy was, we're arresting him for 148 and we told him we were

19

police, and we told him to stop, and he did not.

20

MR. JONES:

He ran.

Well, I think that's a circumstantial

21

question, because he told Officer Flowers, "I didn't know they

22

were officers."

23

at you.

24

around and the first thing you see is a gun and some guy in

25

plainclothes and another guy, you know, who is in an unmarked

Somebody is pointing a gun at you and yells

And you're walking down the street, and you turn

A047

33

1

car.

And he did explain to the officers on several occasions

2

that he dropped out of a gang.

3

fearful for his life.

4

THE COURT:

He had been shot at.

He was

Those may be all great arguments in a

5

jury trial after a 148 charge has been made, but we're talking

6

about the arrest stage.

7

valid arrest under those circumstances because of the probable

8

cause based on what your client did, when he was told to stop,

9

and the officers identified themselves as officers, then all

And we're talking about if 148 was a

10

of the things you're wanting to suppress would have been found

11

anyway.

12

It's inevitable discovery, is it not?
MR. JONES:

If it was -- if it was a legal arrest, I

13

think inevitable discovery and the search was somehow

14

inappropriate, inevitable discovery might apply.

15

believe inevitable discovery should apply in this situation.

I don't

16

THE COURT:

Okay.

17

MR. JONES:

I do believe that the initial contact was

18

excessive and that they may have had grounds for a Terry stop,

19

but they initially exceeded that.

20

THE COURT:

Okay.

21

MR. JONES:

No, Your Honor.

22

Anything further?

Thank you for your

indulgence.

23

THE COURT:

24

MS. MASSEY:

25

All right.

Okay.
Your Honor, just briefly.

I think it's

important to reiterate that they're -- up until the time where

A048

34

1

the defendant had fought with the police and at that point

2

officers had probable cause to arrest him for that incident,

3

there's no Fourth Amendment issue up until that point.

4

The defendant is not seized up until the point where

5

the officers lay hands on him.

6

wear a tactical vest with patches on it that indicate they're

7

police, that are yelling to him, "Stop.

8

that, he takes off running.

9

authority at that point in time.

10

Despite the fact that officers

Police," despite all

He's not submitting to their

He doesn't submit to their authority until the two of

11

them, meaning Officers Sergeant Wilkin and Special Agent

12

Carlos, have to physically fight with the defendant in order

13

to subdue him.

14

Amendment until that point in time, because he never succumbs

15

to their authority in the first place.

16

So it does not become an issue with the Fourth

With regard to counsel's statement about the excess

17

force in attempting to stop the defendant, I don't believe

18

that should be an issue here at all, certainly based on the

19

information the officers had at the time and believing him to

20

still potentially be armed, coming out of that same location,

21

wearing the same clothes.

22

were certainly reasonable to draw their firearms, coupling

23

that with the fact defendant had this outstanding warrant.

At that point in time, officers

24

THE COURT:

Anything else?

25

All right.

With regard to the motion for discovery,

A049

35

1

that appears as though, based on representation of counsel,

2

based on that which has been provided to the Court, that all

3

has been provided that the prosecution has.

4

Now, if, for some reason, at a later time the police

5

find something and give it to the government, and the

6

government turns over in an untimely fashion, not because the

7

government is untimely, but -- well, it would be the

8

government because the government would include police.

9

the police give it to the -- to the government late, and

If

10

there's an effect, then that's an issue that would be brought

11

up at that time.

12

But right now, based on everything that has been

13

provided, based on the law under Rule 16, Jencks that which is

14

required to have been turned over to date has been.

15

therefore, that motion is denied, certainly without prejudice

16

in the event that circumstances change, but based on what I've

17

got before me now.

18

And

On the motion to dismiss, there is no double jeopardy

19

issue.

The Gamble case does adequately provide the law and

20

certainly accurately.

21

the state -- no matter what the state case did, the bottom

22

line was the state court had no authority to indicate to the

23

federal government, specifically the Department of Justice,

24

what they could or couldn't do with any federal court

25

prosecution.

And in this particular case, even at

The Department of Justice did whatever they did,

A050

36

1

and I think what this is really, should there be either a plea

2

or there should be a conviction, this is a 3553(a) factor at

3

the time of sentencing on what that sentence should be.

4

Therefore, the motion to dismiss is denied.

5

On the motion to suppress, that which occurred, even

6

in light of what the defense's view of what occurred, has no

7

effect to suppress anything.

8

Court incorporates its argument in the questions just asked

9

and answers.

10
11
12
13

And as a result of -- and the

Therefore, the motion to suppress is denied.

Trial date is January 28th.

Does it appear as though

this is a sure go?
MR. JONES:

I can't predict with 100 percent

certainty, but as of right now, I would say it's a go.

14

THE COURT:

And is the government done with its plea

15

bargaining and negotiations?

16

MR. SHERRIFF:

Yes, Your Honor.

17

I would note that if Mr. Jones were to talk with us

18

today and request a plea, given other matters and the Court's

19

schedule, we would entertain a plea offer this week.

20

beyond that, no.

21

entertaining a plea at this point.

But

In other circumstances, we would not be

22

THE COURT:

So in other words today is it?

23

MR. SHERRIFF:

I would say we need to hear today that

24

this is something interesting and that we they want to pursue,

25

and we can hold it open for a few days this week.

A051

37

1
2

THE COURT:

So the government's position is that

unless something new occurs at the end of today, you're done?

3

MR. SHERRIFF:

4

THE COURT:

That's just for information purposes

6

MR. JONES:

Mr. Torres could always plead.

7

THE COURT:

Straight up, sure.

8

MR. JONES:

Straight up.

9

THE COURT:

All right.

10

MR. JONES:

No.

11

THE COURT:

Fine.

5

12

That is correct, Your Honor.

only.

Anything else?

We'll be in recess.

(The Proceedings were concluded at 1:49 p.m.)

13
14
I, RACHAEL LUNDY, Official Reporter, do hereby

15
16

certify the foregoing transcript as true and correct.

17
18
19

Dated:

April 2, 2020

/s/ Rachael Lundy_______
RACHAEL LUNDY, CSR-RPR
CSR No. 13815

20
21
22
23
24
25

A052

AP P ENDI X4

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 1 of 28

A053

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 2 of 28

A054

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 3 of 28

A055

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 4 of 28

A056

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 5 of 28

A057

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 6 of 28

A058

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 7 of 28

A059

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 8 of 28

A060

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 9 of 28

A061

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 10 of 28

A062

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 11 of 28

A063

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 12 of 28

A064

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 13 of 28

A065

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 14 of 28

A066

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 15 of 28

A067

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 16 of 28

A068

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 17 of 28

A069

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 18 of 28

A070

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 19 of 28

A071

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 20 of 28

A072

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 21 of 28

A073

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 22 of 28

A074

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 23 of 28

A075

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 24 of 28

A076

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 25 of 28

A077

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 26 of 28

A078

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 27 of 28

A079

Case 1:18-cr-00147-DAD-SKO Document 39 Filed 12/20/19 Page 28 of 28

A080

AP P ENDI X5

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 1 of 62

`

CA No. 20-10112

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
RAUL ADRIAN TORRES,
Defendant-Appellant.
___________________________________

)
)
)
)
)
)
)
)
)
)

D.C. No. 1:18-cr-00147-DAD

APPELLANT’S OPENING BRIEF

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
HONORABLE DALE A. DROZD
United States District Judge

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A081

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A082

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 12 of 62

CA No. 20-10112
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
Plaintiff-Appellee,
)
)
v.
)
)
RAUL ADRIAN TORRES,
)
)
Defendant-Appellant.
)
______________________________________ )

D.C. No. 1:18-cr-00147-DAD

I.
STATEMENT OF JURISDICTION

This is an appeal from a conviction for felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1). The district court had jurisdiction under 18
U.S.C. § 3231. This Court has jurisdiction under 28 U.S.C. § 1291. Judgment
was entered on March 11, 2020, see ER 40-46, and a timely notice of appeal was
filed on March 17, 2020, see ER 38-39.

*

*

*

1
A083

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 13 of 62

II.
STATEMENT OF ISSUES PRESENTED

A.

DID THE DISTRICT COURT ERR IN RULING THERE WAS

PROBABLE CAUSE FOR AN ARREST WITHOUT HOLDING AN
EVIDENTIARY HEARING?
1.

Did the Officers Have Probable Cause to Arrest Mr. Torres for

Resisting Arrest Under California Penal Code § 148 Only if They Had Probable
Cause to Make the Arrest that Mr. Torres Resisted, Because Section 148 Applies
Only to Resisting Lawful Police Conduct?
2.

Did the District Court Abuse Its Discretion in Denying an Evidentiary

Hearing Because It Based the Denial on an Erroneous Interpretation of Section
148 and There Were Sufficiently Contested Issues of Fact?

B.

MUST A GUN FOUND IN THE SEARCH OF A BACKPACK BE

SUPPRESSED REGARDLESS OF THE LAWFULNESS OF THE ARREST?
1.

Did the Search Incident to Arrest Exception Fail to Justify the Search

Because the Search Took Place After Mr. Torres Had Been Handcuffed and
Shackled and There Were Intervening Acts Including One Officer Walking to and
from a Vehicle, a Question About Why Mr. Torres Had Run, and at Least Some
Delay?
2.

Did the Government Fail to Carry Its Burden of Proving Inevitable

Discovery Through an Inventory Search Because the Government Presented No
Evidence of an Inventory Search Policy?

2
A084

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 14 of 62

C.

MUST POST-ARREST STATEMENTS BY MR. TORRES BE

SUPPRESSED AND/OR BE THE SUBJECT OF A FURTHER EVIDENTIARY
HEARING?
1.

Must the Answer to a Question of Why Mr. Torres Ran Be

Suppressed Because the Question Was Custodial Interrogation that Did Not Come
Within the Public Safety Exception to Miranda?
a.

Was the question custodial interrogation requiring Miranda

warnings?
b.
2.

Did the public safety exception apply?

Is an Evidentiary Hearing Needed to Resolve the Admissibility of

Other Statements?
a.

Is an evidentiary hearing needed to resolve the question of

whether statements made to a detective without express questioning
were a product of custodial interrogation in the form of conduct that
was reasonably likely to elicit an incriminating response?
b.

Is an evidentiary hearing needed to resolve the question of

whether Miranda warnings preceding a final set of statements were
rendered ineffective by the prior unMirandized statements, under
Missouri v. Seibert, 542 U.S. 600 (2004)?

D.

DID THE DISTRICT COURT ERR IN FAILING TO RECOGNIZE AND

CONSIDER A FUNDAMENTAL FAIRNESS EXCEPTION TO A GENERAL
RULE THAT STATE COURT PROMISES CANNOT PRECLUDE A FEDERAL
PROSECUTION?

3
A085

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 15 of 62

III.
BAIL STATUS OF DEFENDANT

Mr. Torres is presently serving the sentence the district court imposed,
which was 78 months. His projected release date is August 28, 2025.

IV.
STATEMENT OF THE CASE

A.

INVESTIGATION AND ARREST.

On March 15, 2018, a Fresno Police Department detective named
Christopher Martinez was monitoring social media to identify gang members and
monitor gang activity. ER 147. He observed a video on a SnapChat account that
belonged to a gang member named Nicholas Ray Gonzales. ER 147-48. The
video showed Mr. Gonzales and another “Hispanic male” wearing a black beanie,
pointing a gun and making gang signs. ER 148. The video had a background
Detective Martinez recognized as Mr. Gonzales’s residence. See ER 148.
Detective Martinez went to Mr. Gonzales’s address to conduct surveillance
and watch for the men in the video. ER 148. The detective searched through Mr.
Gonzales’s Facebook friends in an effort to identify the other man in the video and
found a man named “Reckit DaP.” ER 148. This “Reckit DaP” identified himself
in his own Facebook profile as “Ay-dree-en TOR-hes.” ER 148. Detective
Martinez searched a law enforcement database for the name “Adrian Torres” and

4
A086

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 16 of 62

found an Adrian Torres with a date of birth in 1990, whom Detective Martinez
decided was the man in the video. ER 62, 148. This Adrian Torres had a prior
conviction for felon in possession of ammunition and an outstanding probation
violation warrant. ER 62, 148.
Detective Martinez had two other officers – Fresno Police Department
Sergeant David Wilkin and Immigration and Customs Enforcement Agent Joe
Carlos – take over the surveillance so Detective Martinez could “conduct further
research and prepare a search warrant for the residence.” ER 149. Detective
Martinez sent the other two officers a screenshot of the previously unknown man
in the video so they would be able to recognize him. ER 63.
Sergeant Wilkin and Agent Carlos were in plain clothes in an unmarked
vehicle. ER 155. Two men left the house while the officers were watching, and
the officers recognized one of the men, who was wearing a black beanie and had a
small backpack, as the previously unknown man in the video. ER 155. They
advised Detective Martinez of this, and he informed them the man had a felony
warrant. ER 155.
Sergeant Wilkin put on a tactical police vest, and the officers followed the
two men who had left the house. ER 156. After a short distance, Sergeant Wilkin
got out of the vehicle, drew his gun, and yelled, “Fresno Police, let me see your
hands.” ER 156. The man whom the officers did not recognize stopped, but the
man whom they recognized from the video started walking faster, and he began to
run when Sergeant Wilkin again stated, “Police, Stop.” ER 156.
Sergeant Wilkin ran after the man, while Agent Carlos pursued him in the
vehicle. ER 156. Agent Carlos caught up to the man and drove next to him,

5
A087

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 17 of 62

yelling at him to stop. ER 156. Agent Carlos “then drifted to the left in an attempt
to slow [the man] down.” ER 156. The man tried to stop, slipped, and fell. ER
156. He got up and turned toward Sergeant Wilkin, supposedly clenching his fists
and raising them to his waist, and taking what Sergeant Wilkin described as “a
fighting stance.” See ER 156.
Sergeant Wilkin decided “body strikes were the most appropriate use of
force” and kicked the man in the chest. ER 156. Both the man and Sergeant
Wilkin fell to the ground. ER 156. Agent Carlos got out of the vehicle and
grabbed the man. ER 156. The man tried to get up and cursed the officers while
they held him down. ER 156-57. Sergeant Wilkin punched him and kneed him
“in order to defend myself and [Agent] Carlos from injury and take [the man] into
custody.” ER 157. Sergeant Wilkin was eventually able to handcuff the man’s
hands behind him. ER 157. Agent Carlos then went to the vehicle and retrieved
leg shackles to put on the man’s legs. ER 157.
The officers waited for additional units to arrive, and the man continued to
curse the officers. See ER 157. At some point while they were waiting, Agent
Carlos asked the man why he had run, and the man replied, “Cause I have a gun.”
ER 157. Sergeant Wilkin opened the backpack after hearing this and found a
loaded handgun. ER 157. He claimed the man stated, “I’m gonna smoke you”
after the gun was found. ER 157.
Another officer, Detective Ron Flowers, arrived and put the man in his
patrol car. ER 157, 160-61. The man was angry and “began to make comments of
injuring police officers,” saying that if he had known Sergeant Wilkin and Agent
Carlos were officers, he would have either shot it out with them or shot himself.

6

A088

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 18 of 62

ER 161. Detective Flowers “asked for his information to run him on my
computer,” and the man continued saying he would have shot at the officers. ER
161. The man identified himself not as the Adrian Torres with a date of birth in
1990, but as Raul Adrian Torres, the appellant in this case, whose date of birth is
in 1997. See ER 149, 161. He also made additional statements about gang
associations, conflicts with gang members, having been shot at himself, needing
the gun for protection and being willing to shoot it out, and knowing he was going
to die. See ER 161.
Detective Martinez also responded to the scene. ER 149, 157. He read
Miranda warnings to Mr. Torres1 and questioned Mr. Torres about the gun. ER
150. Mr. Torres again made statements admitting possession of the gun,
explaining his gang associations and conflicts, and explaining he needed the gun
for protection. See ER 150-51.

B.

STATE CHARGES AND DISPOSITION.

Mr. Torres was initially charged with felon in possession of a firearm and
other gun charges in state court. See ER 126. He also faced other state charges,
including violation of probation that had been imposed for a domestic violence
conviction and a new domestic violence charge. See ER 98, 129-30. He agreed to
a global disposition of those charges on June 7, 2018. See ER 110-21.
The disposition agreement was not written, but was put on the record orally

1

“Mr. Torres” as used in this brief refers to the appellant, Raul Adrian
Torres. The older Adrian Torres who had the probation violation warrant is
referred to as “Adrian Torres.”
7

A089

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 19 of 62

in state court proceedings. The prosecutor summarized the agreement as:
If he admits the violation in case ending 940, with the four-year
term, the People are going to dismiss case ending 870 in light
of that violation. And the People are going to move to dismiss
case ending 871 in light of a federal prosecution.
ER 113-14.
The court summarized the agreement after that. It told Mr. Torres before
taking his admissions:
[Y]ou will be admitting the following violations of probation in
docket ending 940, that is: Failing to drug test, as ordered by
the Court, failing to obey all laws, and failing to report to your
probation officer on February 28, 2018.
If you do that, the People are requesting that the Court
commit you to the middle term of four years.
. . . [T]he People will also agree to dismiss your
remaining two felony cases . . . .
ER 116. After accepting Mr. Torres’s admissions and sentencing him to the four
years, the court stated that the other cases were dismissed, “pursuant to the plea
agreement in this case.” ER 119.
Mr. Torres’s understanding from all this, as stated in a later declaration,
was:
Although I was advised the federal government might takeover the charges in case F18901871 (felon in possession of a
firearm), it was my understanding and belief that the case was
still pending in state court and my accepting the 4 years would
result in a full dismissal of those charges.
ER 103.

C.

FEDERAL INDICTMENT AND MOTIONS.

Mr. Torres was indicted in federal court despite his understanding, less than

8

A090

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 20 of 62

a month after the state court proceedings. See CR 10. See also ER 162-63
(superseding indictment).2 Mr. Torres initially entered into a plea agreement and
pled guilty, see CR 17, 19, but subsequently decided his attorney had not
effectively represented him, see CR 29 (attorney motion to withdraw). New
counsel was appointed, and Mr. Torres withdrew his guilty plea. See CR 30, 34.
After several status conferences, the new attorney filed motions. One was a
motion to dismiss based on Mr. Torres’s understanding that the state court
agreement disposed of the gun charges. See ER 97-133. The government’s
response to this motion was that there was no misunderstanding and there was no
constitutional bar. See ER 92-96.
A second motion was a motion to suppress evidence. See ER 134-61. That
motion made Fourth Amendment arguments challenging both the arrest and the
search of the backpack. See ER 139-41. It argued a warrantless search of the
backpack was unlawful even if the arrest was lawful because the search took place
after Mr. Torres had been placed in restraints. See ER 141. It argued the arrest
was unlawful because Mr. Torres was not the Adrian Torres the officers had
probable cause to arrest. See ER 139-41. It attached reports from Sergeant Wilkin
and Detective Martinez that contradicted each other. See ER 144-58. Detective
Martinez’s report indicated he had informed Sergeant Wilkin and Agent Carlos
that the previously unknown man in the video was Adrian Torres, with the 1990
date of birth. See ER 148-49. Sergeant Wilkin’s report stated Detective Martinez

2

The superseding indictment added an allegation that Mr. Torres knew he
had been convicted of a crime punishable by imprisonment exceeding one year, as
required by Rehaif v. United States, 139 S. Ct. 2191 (2019). Compare ER 162-63
(superseding indictment) with CR 10 (original indictment).
9

A091

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 21 of 62

identified the man as Raul Adrian Torres, the appellant in this case, with his 1997
date of birth. See ER 155.
The suppression motion also made Fifth Amendment arguments seeking
suppression of Mr. Torres’s statements. It argued the statement to Sergeant
Wilkin and Agent Carlos and the statements to Detective Flowers should be
suppressed because they had been made without Miranda warnings. See ER 14142. It argued the Miranda warnings before the statements to Detective Martinez
were ineffective under Missouri v. Seibert, 542 U.S. 600 (2004). See ER 142.
The government responded with declarations from the four officers
adopting the individual reports they had prepared. See ER 63-64, 72, 75, 78. The
government also provided a sample screenshot of Mr. Torres in the video and a
photograph of the Adrian Torres who had the prior felon in possession of
ammunition conviction and probation violation warrant. See ER 52, 54. The
government argued the officers had reasonably mistaken Mr. Torres for Adrian
Torres. See ER 50-55. It argued the search of the backpack was a proper search
incident to arrest. See ER 56-57. It also argued the gun would have been
inevitably discovered in a subsequent inventory search, but presented no evidence
about an inventory search policy. See ER 56-57. It argued the question about why
Mr. Torres had run was proper under the “public safety exception” to Miranda,
that the statements to Detective Flowers were “spontaneous [and] unsolicited,”
and that the statements to Detective Martinez were made after a voluntary Miranda
waiver. ER 57-60. It added an argument at the hearing that the question about
why Mr. Torres had run was “not designed to elicit an incriminating response.”
ER 25.

10

A092

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 22 of 62

Defense counsel argued the court needed to hold an evidentiary hearing.
See ER 4. In addition to the conflict in the Sergeant Wilkin and Detective
Martinez reports, he pointed out the Adrian Torres the officers had supposedly
mistaken Mr. Torres for was eight (actually closer to seven) years older and had
prominent tattoos Mr. Torres did not have. See ER 6, 8. He also challenged the
officers’ version of how the statements were made. See ER 9-10. He argued, “we
believe that we have submitted enough confusion over what information was
provided,” ER 8, and “there is enough information provided to the Court to order
an evidentiary hearing here to clear the air on all these issues,” ER 9-10.
The court asked questions of the prosecutor suggesting it agreed there were
factual disputes that could be resolved only with an evidentiary hearing, see ER
22-23, 26; see also infra pp. 20-21, and the prosecutor even conceded this at one
point, see ER 26. The court ultimately decided it did not need to resolve the
disputed issues, however, and denied the motion without an evidentiary hearing.
See ER 36. Its rationale was that probable cause to make the originally intended
arrest did not matter because Mr. Torres’s resistance created probable cause to
arrest for the separate offense of obstructing an officer. See ER 27-28, 32; infra p.
15. It suggested the statement about the gun did not matter because the officers
would have found the gun anyway. See ER 32; infra p. 34. It did not comment on
the other issues. See ER 36 (simply “incorporat[ing] its argument in the questions
just asked and answers” and denying motion).
The court also denied the motion to dismiss without an evidentiary hearing.
First, it reasoned that “there is no double jeopardy issue,” citing the Supreme
Court’s recent decision in Gamble v. United States, 139 S. Ct. 1960 (2019). ER

11

A093

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 23 of 62

35. Second, it reasoned that “the state court had no authority to indicate to the
federal government, specifically the Department of Justice, what they could or
couldn’t do with any federal court prosecution.” ER 35.
After the motions were denied, Mr. Torres entered into a new plea
agreement with the government. See CR 56. This agreement provided for a
conditional guilty plea allowing Mr. Torres to appeal the denial of his motions.
See CR 56, at 8.

V.
SUMMARY OF ARGUMENT

There are multiple Fourth and Fifth Amendment errors in this case that
require either an evidentiary hearing or outright reversal. The first error was in the
court’s ruling on the arrest. The district court recognized an evidentiary hearing
was necessary to resolve whether there was probable cause to arrest Mr. Torres
based on the mistaken belief he was Adrian Torres. The court declined to hold an
evidentiary hearing on that question only because it believed there was
independent probable cause to arrest Mr. Torres for resisting arrest. This was a
legal error which overlooked an important limitation on the California resisting
arrest statute – that it is violated only when the officer is acting lawfully. This
means there was probable cause to arrest Mr. Torres for resisting arrest only if
there was probable cause for the arrest he was resisting. The court could not avoid
that question the way it thought it could.
Next, the search of Mr. Torres’s backpack was unlawful even if the arrest

12

A094

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 24 of 62

was lawful. It was not justified as a search incident to arrest because the search
incident to arrest exception is based on concerns for officer safety and/or
preventing the destruction of evidence. Those concerns were not implicated here
because, first, Mr. Torres had been handcuffed and shackled, and, second, the
search was not conducted only after several intervening acts. Those intervening
acts included Agent Carlos going to and from the vehicle, the questioning of Mr.
Torres about why he had run, and at least some time spent waiting for additional
officers.
The government’s backup inevitable discovery argument also fails, because
the government presented no evidence of an inventory search policy. The
government bears the burden of showing there in fact would have been inevitable
discovery. Where the inevitable discovery theory is an inventory search theory,
the government must prove, first, there was an inventory search policy satisfying
constitutional requirements, and, second, that policy would have required the
search in question. The government proved neither of these things here.
There are also Fifth Amendment violations to be considered. Agent
Carlos’s question about why Mr. Torres had run was custodial interrogation
because, first, it was express questioning, and, second, it was reasonably likely to
elicit an incriminating response. The public safety exception does not apply
because that exception applies only to narrowly tailored questions focused on a
danger to public safety. The question here was a general question focused on any
wrongdoing that might have led Mr. Torres to run. That general question was
custodial interrogation not narrowly focused on public safety, and Mr. Torres’s
answer to the question must be suppressed.

13

A095

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A096

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 33 of 62

Hartmax Corp., 496 U.S. at 405).5

B.

THE GUN FOUND IN THE SEARCH OF THE BACKPACK MUST BE

SUPPRESSED REGARDLESS OF THE LAWFULNESS OF THE ARREST.

1.

Reviewability and Standard of Review.

Defense counsel argued the search of Mr. Torres’s backpack was an
unlawful warrantless search. See ER 141. The government offered two arguments
in response. Its primary argument was that the search was justified as a search
incident to arrest. See ER 56. A backup argument was that the officers “would
have inevitably discovered the firearm inside [Mr. Torres’s] backpack during his
booking inventory search once he had been transported back to the police
department or the jail for processing.” ER 57.
The district court did not clearly indicate which government theory it was
adopting. See ER 36. It simply referenced “the questions just asked and answers.”
ER 36. Those questions had focused on the court’s Penal Code § 148 theory for
the arrest, and what would have followed inevitably from that, not the justification
for the search once the arrest had been made.

5

It would have been an abuse of discretion to refuse to hold an evidentiary
hearing even without the legal error. The court’s exchange with the prosecutor
recognized there was “an offer of proof ‘sufficiently definite, specific, detailed,
and nonconjectural to enable the court to conclude that contested issues of fact
going to the validity of the [arrest] are in question,” Supra p. 16 (quoting United
States v. Dicesare, 765 F.2d 890, 895-96 (9th Cir. 1985), and United States v.
Ledesma, 499 F.2d 36, 39 (9th Cir. 1974)). Denying an evidentiary hearing when
there is such a showing is an abuse of discretion even when the denial is not based
on a legal error. See Dicesare, 765 F.2d at 895-96.
22

A097

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 34 of 62

He created probable cause for a 148 arrest.
And once that occurred, they were going to find the gun
whether he admitted it or not, whether they asked the question
that could have been in violation of Miranda or not. They’re
going to find the gun. They’re not going to suppress it.
ER 32. See also ER 33 (“[B]ecause of the probable cause based on what your
client did, when he was told to stop, and the officers identified themselves as
officers, then all of the things you’re wanting to suppress would have been found
anyway. It’s inevitable discovery, is it not?”).
Whether a search is justified as a search incident to arrest is reviewed de
novo. United States v. Smith, 389 F.3d 944, 950 (9th Cir. 2004); United States v.
Vasey, 834 F.2d 782, 785 (9th Cir. 1987). Whether the inevitable discovery
exception applies is reviewed for clear error. United States v. Lundin, 817 F.3d
1151, 1157 (9th Cir. 2016).

2.

The Search Incident to Arrest Exception Did Not Justify the Search

Because the Search Took Place After Mr. Torres Had Been Handcuffed and
Shackled and There Were Intervening Acts Including Agent Carlos Walking to
and from the Vehicle, the Question About Why Mr. Torres Had Run, and at Least
Some Delay.

a.

Conceded facts establish that the search incident to arrest

exception did not justify the search.

The search incident to arrest exception is one of “a few specifically
established and well-delineated exceptions” to the Fourth Amendment warrant

23

A098

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 35 of 62

requirement. Arizona v. Gant, 556 U.S. 332, 338 (2009) (quoting Katz v. United
States, 389 U.S. 347, 357 (1967)). It “derives from interests in officer safety and
evidence preservation that are typically implicated in arrest situations.” Gant, 556
U.S. at 338. It allows the police to search only “the arrestee’s person and the area
‘within his immediate control’ – . . . mean[ing] the area from within which he
might gain possession of a weapon or destructible evidence.” Id. at 339 (quoting
Chimel v. California, 395 U.S. 752, 763 (1969)). This limitation “ensures that the
scope of a search incident to arrest is commensurate with its purposes of
protecting arresting officers and safeguarding any evidence of the offense of arrest
that an arrestee may conceal or destroy.” Gant, 556 U.S. at 339. “If there is no
possibility that an arrestee could reach into the area that law enforcement officers
seek to search, both justifications for the search-incident-to-arrest exception are
absent and the rule does not apply.” Id.
It would seem to follow that officers may not conduct a search incident to
arrest once a defendant has been handcuffed and officers have taken control of the
container at issue. See Gant, 556 U.S. at 343 (holding exception “authorizes
police to search a vehicle incident to a recent occupant’s arrest only when the
arrestee is unsecured and within reaching distance of the passenger compartment
at the time of the search”). Still, some courts have held this is not always the case.
This Court so held in United States v. Cook, 808 F.3d 1195 (9th Cir. 2015). The
defendant there had been ordered to the ground at gunpoint and handcuffed
immediately upon being arrested. See id. at 1197. The court held the handcuffing
was “significant, but not dispositive,” id. at 1200, and pointed to “other
countervailing facts that we must consider,” id. at 1199.

24

A099

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 36 of 62

The search, both quick and cursory, was “spatially and
temporally incident to the arrest.” [United States v.] Camou,
773 F.3d [932,] 937 [(9th Cir. 2014)]. It occurred immediately
after Officer Knight arrived on the scene, as Cook was being
taken into custody. Cook’s backpack was right next to him.
And, within 20 to 30 seconds, as soon as Officer Knight
determined that the backpack contained no weapons, he
immediately stopped the search. The brief and limited nature
of the search, its immediacy to the time of arrest, and the
location of the backpack ensured that the search was
“commensurate with its purposes of protecting arresting
officers and safeguarding any evidence of the offense of arrest
that [Cook] might conceal or destroy.” Gant, 556 U.S. at 339.
Cook, 808 F.3d at 1199-1200.
In other cases in which the defendant was handcuffed – collected in Camou
– the Court has held searches were not justified by the search incident to arrest
exception. The Court explained in Camou that there are two questions: (1) “was
the searched item ‘within the arrestee’s immediate control when he was arrested’”;
and (2) “did ‘events occurring after the arrest but before the search ma[k]e the
search unreasonable’?” Camou, 773 F.3d at 938 (quoting United States v.
Maddox, 614 F.3d 1046, 1048 (9th Cir. 2010), and United States v. Turner, 926
F.2d 883, 887 (9th Cir. 1992)). The answer to the second question, which the
Court labeled the “contemporaneity requirement,” depends on whether the arrest
and search are “separated in time or by intervening acts.” Camou, 773 F.3d at
938. The Court noted that in some cases, it has relied on the number of minutes
that passed, and, in other cases, it has relied on “a more impressionistic sense of
the flow of events that begins with the arrest and ends with the search.” Id.
(quoting United States v. Caseres, 533 F.3d 1064, 1073 (9th Cir. 2008)).
In Camou, there was both a lengthy time separation of an hour and 20
minutes and intervening acts that made the search incident to arrest exception

25

A100

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 37 of 62

inapplicable. Id., 773 F.3d at 939. The intervening acts included (1) restraint of
the arrestees with handcuffs; (2) movement of the arrestees from a checkpoint area
to security offices; (3) processing of the arrestees; (4) moving and inventorying
the cell phone which was later searched; and (5) multiple interviews of the
arrestees. Id.
Camou also discussed three prior cases in which there had been lesser
intervening acts that made a search incident to the arrest improper. In United
States v. Vasey, 834 F.2d 782 (9th Cir. 2014), the defendant had been handcuffed,
there had been a 30 to 45 minute delay in the search, and the officers had several
conversations with the defendant between the arrest and the search. See Camou,
773 F.3d at 939 (summarizing Vasey). In Caseres, there was an unquantified
delay, characterized by the district court as “well after,” and intervening events of
police questioning of the defendant, conversations between police, and police
moving back and forth between the site of the arrest and the car which was
searched. See Camou, 773 F.3d at 938 (summarizing Caseres). In Maddox, just
handcuffing the defendant and placing him in a patrol car were held to be
sufficient intervening acts. See Camou, 773 F.3d at 938-39 (summarizing
Maddox).
It is Camou, Maddox, Caseres, and Vasey which should be treated as
controlling here, not Cook. To begin, Cook should be read narrowly to apply only
when there is a search of an item right next to the defendant immediately after
handcuffing with no intervening events. Even on these facts, the Court has
characterized the question as a “close call.” See United States v. Gordon, 694 Fed.
Appx 556, 557 (9th Cir. 2017) (unpublished) (characterizing search on

26

A101

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 38 of 62

comparable facts as “a close call”). See also id. at 558 (Paez, J., concurring) (“I
would reverse the denial of the motion to suppress, in accordance with Arizona v.
Gant, 556 U.S. 332, 129 S. Ct. 1710, 173 L. Ed. 2d 485 (2009) and our decision in
United States v. Camou, 773 F.3d 932 (9th Cir. 2014), if not for United States v.
Cook, 808 F.3d 1195 (9th Cir. 2015).”). It at least creates a tension with Gant, if
not an outright conflict, to allow a search when the defendant is restrained with
handcuffs. It would create even more of a tension to allow such a search when the
defendant is restrained with both handcuffs and leg shackles, as Mr. Torres was.
A defendant who is restrained with both handcuffs and leg shackles is even less
likely to break away, open a backpack, and grab something out of the backpack.6
Further, facts conceded in the police reports establish that there were several
intervening events similar to those in Camou and the other cases it summarizes.
First, there was a delay in conducting the search. The officers did not conduct the
search immediately like the officers in Cook, but were “waiting for additional units
to arrive.” ER 157 (“While waiting for additional units to arrive . . .”). While the
length of the delay is unclear, there was a delay.
Second, one of the officers, Agent Carlos, was back and forth between Mr.
Torres and another location, namely, the vehicle. The agent went to his vehicle to
get the leg shackles after Mr. Torres was handcuffed. See ER 157 (“SA Carlos
then retrieved a pair of leg shackles from the vehicle and placed them on the
suspect’s ankles.”). He was back at the vehicle at the time Sergeant Wilkin found

6

Cook cannot be reconsidered by just the panel assigned to this case, but it
should be reconsidered by the Court en banc if the panel views it as controlling.
As Judge Paez implied in Gordon, Cook creates a tension, if not an outright
conflict with Camou and Gant.
27

A102

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 39 of 62

the gun and Mr. Torres said, “I’m gonna smoke you.” See ER 157 (“I then called
to SA Carlos who was standing at the back of the vehicle.”).
Third, there was conversation and police questioning. Initially, there was
conversation in which Mr. Torres was cursing at the officers, who may or may not
have answered. Then there was the questioning by Agent Carlos about why Mr.
Torres had run and Mr. Torres’s answer that he had a gun. This last exchange is
particularly noteworthy, because it qualifies as custodial interrogation, see infra
pp. 35-38, and suggests an investigative purpose. The officer safety purpose that
justifies a search incident to arrest had been superseded by the investigative
purpose of finding out why Mr. Torres had run.
These intervening events conceded in the police reports distinguish Cook
and make the present case more like Camou, Maddox, Caseres, and Vasey. The
search cannot be found to be a search incident to arrest based on just these
conceded facts.

b.

If the conceded facts are not sufficient, there are ambiguous

facts which must be resolved in an evidentiary hearing.

If the conceded facts just discussed – that Mr. Torres was placed in both
handcuffs and leg shackles; that there was a delay after the arrest; that one of the
officers moved back and forth; and that there was police questioning that rises to
the level of custodial interrogation – are not sufficient to distinguish Cook and
bring the case closer to the other cases, there are other relevant facts which must
be clarified. That requires an evidentiary hearing.

28

A103

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 40 of 62

First, an evidentiary hearing would clarify the length of the delay in
conducting the search. Did it approach the 30 to 45 minute delay in Vasey that
this Court held vitiated the search incident to arrest rationale? Or was it a minimal
delay that would undercut the exception to a lesser extent?
Second, to the extent the officers’ subjective purpose – and the
reasonableness of that purpose – might be relevant, see Camou, 773 F.3d at 936
(noting agent “did not assert that the search was necessary to prevent the
destruction of evidence or to ensure his or anyone else’s safety”); Vasey, 834 F.2d
at 787 (noting officers “exhibited no fear nor testified to any fear that Vasey would
try to get out of the police vehicle to grab a weapon or evidence”), an evidentiary
hearing would shed light on that. Is there any evidence of an officer safety
purpose after Mr. Torres was restrained in handcuffs and leg shackles, let alone a
reasonable officer safety purpose?7
Third, an evidentiary hearing would shed light on where the backpack was
in relation to Mr. Torres and the officers at the time the officers searched it. Was
the backpack right next to Mr. Torres after he was handcuffed and shackled, like
the backpack in Cook after the defendant there was handcuffed (but not placed in
leg shackles)? Or was it some feet away, and were the officers between Mr.
Torres and the backpack? Compare United States v. Knapp, 917 F.3d 1161, 1169
(10th Cir. 2019) (search of purse not justified as search incident to arrest when
“the purse was closed and three to four feet behind [the defendant], and officers

7

The police reports indicate there were safety concerns that led the officers
to knock Mr. Torres down, pin him to the ground, and place him in handcuffs and
leg shackles, but it is difficult to believe those concerns reasonably continued after
Mr. Torres had been restrained.
29

A104

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 41 of 62

had maintained exclusive possession of it since placing her in handcuffs”), with
United States v. Shakir, 616 F.3d 315, 318-19 (3d Cir. 2010) (search of bag
justified as search incident to arrest even when defendant handcuffed because
defendant was standing and “his bag was right next to him”; distinguishing United
States v. Myers, 308 F.3d 251 (3d Cir. 2002), where defendant was lying on floor
and bag was three feet away and zipped shut). Assuming Mr. Torres could
somehow squirm and wriggle to another spot while on his stomach in handcuffs
and leg shackles with an officer holding him down, how far did he have to squirm
and wriggle?
The defense believes the facts conceded in the officer’s reports are
sufficient to distinguish Cook and make the other cases controlling. If they are not
sufficient, there should be an evidentiary hearing to clarify the facts that remain
unclear.

3.

The Government Did Not Carry Its Burden of Proving Inevitable

Discovery Through an Inventory Search Because the Government Presented No
Evidence of an Inventory Search Policy.

Inevitable discovery is an exception to the exclusionary rule. See Nix v.
Williams, 467 U.S. 431 (1984). It applies “[i]f the prosecution can establish by a
preponderance of the evidence that the information ultimately or inevitably would
have been discovered by lawful means.” Id. at 444, quoted in United States v.
Ruckes, 586 F.3d 713, 718 (9th Cir. 2009). This requires more than mere
speculation about what might have happened. There must be “historical facts

30

A105

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 42 of 62

capable of ready verification or impeachment.” Nix, 467 U.S. at 444-45 n.5,
quoted in United States v. Young, 573 F.3d 711, 722 (9th Cir. 2009). As
summarized in Ruckes:
[T]he government is still required to prove, by a preponderance
of the evidence, that there was a lawful alternative justification
for discovering the evidence. Nix, 467 U.S. at 444.
“[I]nevitable discovery involves no speculative elements but
focuses on demonstrated historical facts capable of ready
verification or impeachment.” Id. at 444 n.5. . . . [T]he district
court must conduct a case-by-case inquiry to determine
whether a lawful path to discovery – such as inevitability –
exists in each case.
Ruckes, 586 F.3d at 719 (citations omitted)
There are cases that have found this burden to be carried on a theory like
that advanced by the government here – that there would have been a valid
inventory search. See, e.g., United States v. Peterson, 902 F.3d 1016, 1019-20
(9th Cir. 2018) (“The officers testified that Peterson’s backpack would have been
searched during the booking process, written policies supported their testimony,
and the policies were sufficiently detailed regarding the situation at hand.”);
United States v. Antonio, 386 Fed. Appx. 678, 680 (9th Cir. 2010) (unpublished)
(noting “the officers’ testimony that property taken into police custody is routinely
inventoried for any weapons before transport”); Ruckes, 586 F.3d at 719 (noting
officer testimony at suppression hearing “that because no one was available to
remove the car from the side of Interstate Highway 5, it was standard procedure to
impound it” and “[a]n inventory search would have necessarily followed”); United
States v. Mancera-Londono, 912 F.2d 373, 375-76 (9th Cir. 1990) (describing
agent testimony about DEA policy to return rental car to rental agency, complete
inventory of car before return, and search any containers found in vehicle); United

31

A106

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 43 of 62

States v. Andrade, 784 F.2d 1431, 1433 (9th Cir. 1986) (noting government
“showed that the cocaine would have been discovered through a lawful inventory
procedure”). This requires evidence of two things, however. First, there must be
evidence of an inventory search policy that satisfies Fourth Amendment
requirements, which include “standardized criteria, or established routine, [that]
regulate the opening of containers found during inventory searches,” Florida v.
Wells, 495 U.S. 1, 4 (1990); see also Mancera-Londono, 912 F.2d at 375 (noting
policy must require that “discretion [must be] exercised according to standard
criteria and on the basis of something other than suspicion of evidence of criminal
activity” (quoting Colorado v. Bertine, 479 U.S. 367, 374 n.6 (1987))). Second,
there must be evidence the policy would require the search in question. See
Mancera-Londono, 912 F.2d at 375-76 (describing testimony about policy
requiring search of all containers found in vehicle). Compare United States v.
Perryman, 716 Fed. Appx. 594, 596 (9th Cir. 2017) (unpublished) (rejecting
inevitable discovery based on inventory search where policy would not necessarily
have required search).
Application of the inevitable discovery exception based on an inventory
search policy has been rejected where such evidence has not been presented. One
example is Perryman, where the government attempted to prove the existence of a
policy, but failed because the state law did not always authorize the impoundment
and inventory search the government claimed would have taken place. See id.,
716 Fed. Appx. at 596. Another example may be found in United States v.
Avendano, 373 Fed. Appx. 683 (9th Cir. 2010) (unpublished), where the
government “concede[d] that it failed to meet its burden of proving a standardized

32

A107

Case: 20-10112, 06/24/2020, ID: 11732489, DktEntry: 10, Page 44 of 62

local procedure and compliance with that procedure.” Id. at 685. A third example
may be found in United States v. Gaines, 918 F.3d 793 (10th Cir. 2019), where
“the government presented no evidence of standardized criteria for impoundment
[of a vehicle],” and there was no “proof of a community-caretaking rationale” for
impoundment. Id. at 801.
In the present case, the government did not present evidence like that in the
cases where application of the inevitable discovery exception has been upheld. It
did not even present deficient evidence like it presented in Perryman. It presented
no evidence at all, as in Avendano and Gaines. The government was apparently
asking the district court to simply assume there was an inventory policy and
simply assume the policy would have permitted seizure and search of Mr. Torres’s
backpack. That is, as in Young, “nothing more than speculation – not the
‘demonstrated historical facts capable of ready verification’ required by Nix.”
Young, 573 F.3d at 723 (quoting Nix, 467 U.S. at 444-45 n.5).8

*

*

*

8

While inevitable discovery findings are reviewed under the more
deferential clear error standard, see supra p. 23, the district court did not make a
clear finding to give deference to. The district court did use the words, “inevitable
discovery,” at one point, see ER 33, but it is not clear the court was referring to an
eventual inventory search rather than a search incident to arrest at the scene. In
any event, the government’s complete failure to present any evidence at all makes
any inevitable discovery finding the district court might have made clearly
erroneous.
33

A108

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A109

AP P ENDI X6

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 1 of 37

CA No. 20-10112
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
Plaintiff-Appellee,
)
)
v.
)
)
RAUL ADRIAN TORRES,
)
)
Defendant-Appellant.
)
___________________________________ )

D.C. No. 1:18-cr-00147-DAD

PETITION FOR REHEARING AND
SUGGESTION FOR REHEARING EN BANC

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
HONORABLE DALE A. DROZD
United States District Judge
CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A110

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 2 of 37

CA No. 20-10112
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
Plaintiff-Appellee,
)
)
v.
)
)
RAUL ADRIAN TORRES,
)
)
Defendant-Appellant
)
___________________________________ )

D.C. No. 1:18-cr-00147-DAD

PETITION FOR REHEARING AND
SUGGESTION FOR REHEARING EN BANC
Defendant-appellant, Raul Adrian Torres, petitions for rehearing en banc so
the Court may reconsider search incident to arrest and harmless error case law –
United States v. Cook, 808 F.3d 1195 (9th Cir. 2015), and United States v. Lustig,
830 F.3d 1075 (9th Cir. 2016) – that the panel and/or a majority of the panel
viewed as controlling in this case. The Court should review conflicts between this
case law and other authority pointed out by Judge Paez, concurring in United
States v. Gordon, 694 Fed. Appx. 556 (9th Cir. 2017) (unpublished), and Judge
Watford, concurring in Lustig. Judge Paez pointed out that Cook, which approved
a search very like that in the present case – the search of a defendant’s backpack as
a search incident to arrest even after he had been handcuffed – conflicts with
Arizona v. Gant, 556 U.S. 332 (2009), and United States v. Camou, 773 F.3d 932

1

A111

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 3 of 37

(9th Cir. 2014). Judge Watford pointed out that application of harmless error
analysis to a conditional guilty plea conflicts with the language of the conditional
plea rule, Rule 11(a)(2) of the Federal Rules of Criminal Procedure. There is also
Judge McKeown’s dissent in the present case, which highlights the panel
majority’s misapplication of the harmless error standard and highlights the need to
clarify the standard if Lustig is not overruled.

Respectfully submitted,
DATED: May 6 , 2021

By s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

2

A112

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A113

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 7 of 37

I.
INTRODUCTION

There are two errors in the precedent the panel in the present case treated as
controlling and a need to clarify precedent the panel majority interpreted
incorrectly. First, the case of United States v. Cook, 808 F.3d 1195 (9th Cir.
2015), which held a search like that here – of a backpack after the defendant had
been handcuffed – is a lawful search incident to arrest, conflicts with Supreme
Court and other Ninth Circuit case law. That case law allows a search incident to
arrest only when the arrestee is both unsecured and close enough to the place or
object searched to access it.
Second, the application of harmless error analysis to conditional guilty pleas
allowed in United States v. Lustig, 830 F.3d 1075 (9th Cir. 2016), should be
reconsidered, because (1) it conflicts with the plain language of the conditional
guilty plea rule; (2) there are other mechanisms for preserving harmless error
arguments; and (3) a harmless error inquiry is impractical where there has been no
trial. Even if harmless error analysis does apply, the panel majority here
misapplied it, as Judge McKeown pointed out in her dissent on this point. The
Court should clarify the extremely demanding standard in a conditional guilty plea
case, clarify that the focus is the effect on the defendant’s decision to plead guilty,
and hold there must be objective manifestation of that effect, not appellate court
speculation.

1
A114

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 8 of 37

II.
STATEMENT OF CASE

A.

ARREST, SEARCH, AND QUESTIONING.

On March 15, 2018, a Fresno Police Department detective who was
monitoring social media for gang members observed a video showing Mr. Torres
and another man pointing a gun and making gang signs. See ER 147-48. He
mistakenly identified Mr. Torres as another man who had a prior felon in
possession of ammunition conviction and outstanding warrant. See ER 62, 148.
Officers surveilling the house where the video was recorded observed Mr. Torres
and another man leave. See ER 155-56. Mr. Torres fled when the officers tried to
detain the men, the surveilling officers caught him, and the officers handcuffed
Mr. Torres’s hands behind him and retrieved leg shackles from their vehicle which
they placed on his legs. See ER 156-57.
While waiting for additional units, one of the officers asked Mr. Torres why
he had run, and Mr. Torres replied, “Cause I have a gun.” ER 157. The other
officer then opened the backpack and found a gun. ER 157. Another officer who
had responded placed Mr. Torres in a patrol car, asked him for biographical
information, and discovered he was not the man with the prior felon in possession
of ammunition conviction, though he was on felony probation. See ER 161. The
original detective returned, read Miranda warnings to Mr. Torres, and questioned
him. ER 150. Mr. Torres made additional statements about the gun, including
that he was in possession of it, knew it had obliterated serial numbers, and needed

2
A115

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 9 of 37

it for protection. See ER 150-51.

B.

INDICTMENT, MOTIONS, AND CONDITIONAL GUILTY PLEA.

Mr. Torres was indicted for felon in possession of a firearm, in violation of
18 U.S.C. § 922(g)(1). See CR 10; ER 162-63 (superseding indictment adding
allegation required by Rehaif v. United States, 139 S. Ct. 2191 (2019), of
knowledge convicted of crime punishable by imprisonment exceeding one year).
He eventually filed several motions, including a motion to suppress which made
multiple Fourth and Fifth Amendment arguments. See ER 134-61. One of the
arguments was that the search of the backpack was not a lawful search incident to
arrest because it took place after Mr. Torres was handcuffed. See ER 141.
Another argument was that the “Cause I have a gun” statement in response to the
why did you run question should be suppressed because it was in response to
questioning without Miranda warnings. See ER 141-42. Defense counsel also
argued there needed to be an evidentiary hearing. See ER 4.
The district court denied the motion without an evidentiary hearing. It
focused largely on whether there was probable cause to arrest Mr. Torres despite
the mistaken identification. See ER 22-24, 27-33. It seemed to recognize the why
did you run question was interrogation, see ER 25-26, but suggested the statement
did not matter because the officers would have found the gun anyway, see ER 28,
32. The court did not comment on the other issues. See ER 36 (simply
“incorporat[ing] its argument in the questions just asked and answers” and
denying motion).

3
A116

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 10 of 37

Mr. Torres subsequently agreed to enter a conditional guilty plea allowing
him to appeal denial of his motions. See CR 56, at 8.

C.

APPEAL AND DISPOSITION.

Mr. Torres raised his Fourth and Fifth Amendment claims again on appeal.
A panel of this Court affirmed in a memorandum disposition.1 It upheld the search
of the backpack as a search incident to arrest, holding, “This case is controlled by
United States v. Cook, 808 F.3d 1195 (9th Cir. 2015), which held that the search
incident to a lawful arrest exception applied even though the individual searched
was on the ground in handcuffs when his backpack was searched nearby.”
Memorandum, at 4. Regarding Mr. Torres’s “Cause I have a gun” statement, a
panel majority held any error in admitting the statement2 was harmless, pointing to
“the already substantial evidence that Torres knew his possession of a gun was
illegal.” Memorandum, at 6.
Judge McKeown dissented on the latter point.3 She agreed with a defense
argument that the statement tended to establish the additional element recently
recognized in Rehaif v. United States, 139 S. Ct. 2191 (2019) – that Mr. Torres
1

The memorandum and accompanying dissent are attached as an appendix
and cited as “Memorandum” and “Memorandum Dissent.”
2

It assumed without deciding that the issue did not come within the “public
safety” exception to Miranda. See Memorandum, at 4.
3

Judge McKeown also decided the underlying issue that was simply
assumed by the majority – that the questioning did not come within the “public
safety” exception. See Memorandum Dissent, at 1-2.
4
A117

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 11 of 37

knew he was a person with a felony conviction. See Memorandum Dissent, at 4-5;
Appellant’s Reply Brief, at 9-10. Judge McKeown also recognized the “high bar”
for harmless error in a conditional guilty plea case, requiring there be not even a
“reasonable possibility” the erroneously admitted evidence “contributed to [the]
decision to plead guilty,” which the government will “rarely, if ever,” be able to
show. Memorandum Dissent, at 3 (quoting United States v. Lustig, 830 F.3d
1075, 1089 (9th Cir. 2016), and adding emphasis).

III.
ARGUMENT

A.

THE COURT SHOULD GRANT EN BANC REVIEW BECAUSE THE

COOK OPINION THE PANEL DEEMED CONTROLLING CONFLICTS WITH
BOTH THE SUPREME COURT’S AND THIS COURT’S REITERATION OF
THE LIMITS OF THE SEARCH INCIDENT TO ARREST EXCEPTION.

1.

The Court Should Overrule Cook.

The panel did not independently analyze the question of whether a backpack
can be searched incident to arrest even after an arrestee had been handcuffed. It
instead deemed United States v. Cook, 808 F.3d 1195 (9th Cir. 2015), controlling.
There is disagreement about whether Cook was correctly decided, however. Judge
Paez expressed that disagreement in the later case of United States v. Gordon, 694
Fed. Appx. 556 (9th Cir. 2017) (unpublished), where a duffel bag was searched

5
A118

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 12 of 37

after the defendant was handcuffed, see id. at 556. Judge Paez stated that, but for
Cook, he would have reversed in Gordon, “in accordance with Arizona v. Gant,
556 U.S. 332, 129 S. Ct. 1710, 173 L. Ed. 2d 485 (2009), and our decision in
United States v. Camou, 773 F.3d 932 (9th Cir. 2014).” Gordon, 694 Fed. Appx.
at 558 (Paez, J., concurring).
Judge Paez is correct that Cook was wrongly decided. The search incident
to arrest exception, as explained in Chimel v. California, 395 U.S. 752 (1969),
allows a search of only “the arrestee’s person and the area ‘within his immediate
control’ – construing that phrase to mean the area from within which he might
gain possession of a weapon or destructible evidence.” Id. at 763. The underlying
purpose is “protecting arresting officers and safeguarding any evidence of the
offense of arrest” by “‘remov[ing] any weapons [the arrestee] might seek to use’”
and “‘prevent[ing] [the] concealment or destruction’ of evidence.” Gant, 556 U.S.
at 339 (quoting Chimel, 395 U.S. at 763). “If there is no possibility that an
arrestee could reach into the area that law enforcement officers seek to search,
both justifications for the search-incident-to-arrest exception are absent and the
rule does not apply.” Gant, 556 U.S. at 339.
Gant reemphasized Chimel’s rationale in reconsidering New York v. Belton,
453 U.S. 454 (1981). The Court expressed concern that lower courts’ broad
reading of Belton to allow searches of vehicles incident to arrest even when the
arrestee had been fully restrained “untether[ed] the rule from the justifications
underlying the Chimel exception.” Gant, 556 U.S. at 43. “Accordingly,” the
Court “reject[ed] this reading of Belton and [held] that the Chimel rationale
authorizes police to search a vehicle incident to a recent occupant’s arrest only

6
A119

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 13 of 37

when the arrestee is unsecured and within reaching distance of the passenger
compartment at the time of the search. (Footnote omitted.)” Gant, 556 U.S. at
343. The search in Belton was permissible only because there was “a single
officer confronted with four unsecured arrestees.” Gant, 556 U.S. at 344.
This Court recognized the reasoning of Gant applies to non-vehicle searches
in Camou, where the item searched was a cell phone. The Court noted that “the
first requirement” for a search incident to arrest is the “immediate control”
requirement. Id., 773 F.3d at 937. The Court then explained that requirement and
its purposes, quoting from Gant:
The “immediate control” requirement ensures that a search
incident to arrest will not exceed the rule’s two original
purposes of protecting arresting officers and preventing the
arrestee from destroying evidence: “If there is no possibility
that an arrestee could reach into the area that law enforcement
officers seek to search, both justifications for the searchincident-to-arrest exception are absent and the rule does not
apply.” Gant, 556 U.S. at 339. (Footnote omitted.)
Camou, 773 F.3d at 937.
The Cook case distinguished Gant on the ground that the defendant in Gant
was locked inside a patrol car while the defendant in Cook was “easily within
‘reaching distance’” of his backpack. Cook, 808 F.3d at 1200. But this is not a
sufficient distinction. The reason the search in Gant was not a proper search
incident to arrest was that the arrestees there “had been handcuffed and secured”
so they could not access their vehicle. Id., 556 U.S. at 344. Gant stated that “the
Chimel rationale authorizes police to search a vehicle incident to a recent
occupant’s arrest only when the arrestee is unsecured and within reaching distance
of the passenger compartment at the time of the search. (Footnote omitted.)”
Gant, 556 U.S. at 343 (emphasis added). “Within reaching distance” does not
7
A120

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 14 of 37

matter if the arrestee is secured so that he cannot reach.
The defendant in Cook and Mr. Torres were secured – the Cook defendant
with handcuffs, and Mr. Torres with both handcuffs and leg irons. Secured in this
fashion, they could not reach into the backpacks. Reaching into a backpack or
other container and accessing its contents when one’s hands are handcuffed
behind one’s back – and, in Mr. Torres’s case, one is shackled with leg irons as
well – is no more physically possible than accessing the vehicle was in Gant.
The Court should therefore overrule Cook. It should recognize, as did
Judge Paez, that Gant and Camou preclude a search incident to arrest when the
defendant is handcuffed – and, in Mr. Torres’s case, shackled with leg irons as
well.

2.

The Court Should Strictly Limit Cook if It Does Not Overrule It.

If the Court does not overrule Cook, it should strictly limit it to cases where
there is a factual finding or undisputed facts showing the backpack or other
container is right next to the arrestee, as it apparently was in Cook and Gordon.
The Third Circuit has drawn this distinction. See United States v. Shakir, 616 F.3d
315, 318-19 (3d Cir. 2010) (search of bag justified as search incident to arrest
even when defendant handcuffed because defendant was standing and “his bag
was right next to him”; distinguishing United States v. Myers, 308 F.3d 251 (3d
Cir. 2002), where defendant was lying on floor and bag was three feet away and
zipped shut).
This would require reversal in the present case – or at least remand for an

8
A121

Case: 20-10112, 05/06/2021, ID: 12105227, DktEntry: 35, Page 15 of 37

evidentiary hearing. There was no factual finding of where the backpack was
while Mr. Torres was lying on the ground in handcuffs and leg irons. There was
not even any evidence of where the backpack was, either disputed or undisputed.

B.

THE COURT SHOULD GRANT EN BANC REVIEW TO RECONSIDER

THE APPLICABILITY OF HARMLESS ERROR ANALYSIS TO A
CONDITIONAL GUILTY PLEA AND CLARIFY THE EXTREMELY
DEMANDING STANDARD IF IT CONTINUES TO ALLOW HARMLESS
ERROR ANALYSIS.

A second reason to grant en banc review in this case is to reconsider the
applicability of harmless error analysis to conditional guilty pleas and clarify the
standard if the Court continues to allow harmless error analysis. The Court did
hold in United States v. Lustig, 830 F.3d 1075 (9th Cir. 2016), that harmless error
analysis applies, though with disagreement from Judge Watford, see id. at 1092-94
(Watford, J., concurring). But the Court set an extremely demanding standard,
which was recognized in the present case only by Judge McKeown. The
government must show there is no “reasonable possibility” that the erroneously
admitted evidence “contributed to [the] decision to plead guilty.” Id. at 1089,
quoted in Memorandum Dissent, at 3. And because “only the defendant is in a
position to evaluate the impact of a particular erroneous refusal to suppress
evidence,” Lustig, 830 F.3d at 1089, quoted in Memorandum Dissent, at 6, “an
appellate court will rarely, if ever, be able to determine whether an erroneous
denial of a motion to suppress contributed to the defendant’s decision [to plead

9

A122

PAGES NOT PERTINENT TO PETITION FOR
WRIT OF CERTIORARI OMITTED

A123

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
MARLIN LEE GOUGHER, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
CERTIFICATE OF SERVICE
______________________________________
I, Carlton F. Gunn, hereby certify that on this 3rd day of August, 2021, a
copy of the Petitioner’s Motion for Leave to Proceed in Forma Pauperis and
Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit was served on the Solicitor General of the United States, by
electronic mail, at supremectbriefs@usdoj.gov, as consented to by the Solicitor
General’s office and authorized by this Court’s order issued April 15, 2020 in
light of the ongoing public health concerns relating to COVID-19.
Respectfully submitted,
August 3 , 2021

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

